<html>
<title> - MISCELLANEOUS NATIONAL HERITAGE AREA BILLS</title>
<body><pre>[Senate Hearing 107-642]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-642

 
                    MISCELLANEOUS NATIONAL HERITAGE 
                               AREA BILLS
=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                     

                           S. 1441                               S. 2033
 
                           S. 1526                               H.R. 695
 
                           S. 1638                               H.R. 1776
 
                           S. 1809                               H.R. 4004
 
                           S. 1939
 

                                     
                               __________

                             APRIL 18, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources


                       U. S. GOVERNMENT PRINTING OFFICE
81-569                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
                     Nancie Ames, Bevinetto Fellow
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Baker, James, Site Administrator, Felix Valle House State 
  Historic Site, Missouri Department of Natural Resources, St. 
  Genevieve, MO..................................................    37
Barrett, Brenda, National Coordinator for Heritage Areas, 
  National Park Service, Department of the Interior..............    10
Chafee, Hon. Lincoln D., U.S. Senator from Rhode Island..........     2
Cleland, Hon. Max, U.S. Senator from Georgia.....................     4
Jordan, Kelly, Chair, Arabia Mountain Heritage Area Alliance, 
  Lithonia, GA...................................................    34
Koyle, Denys M., Secretary, Great Basin Heritage Area 
  Partnership, Baker, NV.........................................    24
Reid, Hon. Harry, U.S. Senator from Nevada.......................    39
Santorum, Hon. Rick, U.S. Senator from Pennsylvania..............     8
Shoup, Ronald E., Executive Director, Oil City Area Chamber of 
  Commerce, Oil City, PA.........................................    28
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2

                                APPENDIX

Additional material submitted for the record.....................    47






                    MISCELLANEOUS NATIONAL HERITAGE 
                               AREA BILLS

                              ----------                              


                        THURSDAY, APRIL 18, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. This hearing will come to order. The purpose 
of this afternoon's hearing before the Subcommittee on National 
Parks is to receive testimony on several bills dealing with 
national heritage areas. The bills that we will consider today 
include: S. 1441 and H.R. 695, to establish the Oil Region 
National Heritage Area in Pennsylvania; S. 1526, to establish 
the Arabia Mountain National Heritage Area in Georgia; S. 1638, 
to authorize the Secretary of the Interior to study the 
suitability and feasibility of designating the French Colonial 
Heritage Area in Missouri as a unit of the National Park 
System; S. 1809 and H.R. 1776, to authorize the Secretary of 
the Interior to study the suitability and feasibility of 
establishing the Buffalo Bayou National Heritage Area in Texas; 
S. 1939, to establish the Great Basin National Heritage Area in 
Nevada and Utah; and S. 2033, to authorize appropriations for 
the John H. Chafee Blackstone River Valley National Heritage 
Corridor in Massachusetts and Rhode Island.
    I hope we can focus today not only on the merits of 
individual bills, but also on what the policy should be for 
heritage areas in general. Ten years ago, only three places 
existed with a heritage area or heritage corridor designation, 
including the Blackstone River Valley that we are considering 
today. Since 1996 there has been a rapid increase in the number 
of heritage areas and today there are 23 designated areas.
    We are considering proposals for five new areas today, and 
additional heritage areas are currently being proposed in both 
the House and the Senate. As we consider these proposals, I 
think it is important that we have a clear policy on how to 
determine which areas merit approval so that consistent 
criteria are applied to all proposed areas.
    In addition, I think it is important that we review what 
study requirements are needed for new areas that are proposed. 
As we designate more areas, I believe we need to discuss what 
criteria are needed to ensure that the designation of an area 
is meaningful and not just an empty authorization.
    I look forward to working with Senator Thomas and other 
committee members as we work through these issues to develop a 
clear policy on how to treat new heritage area proposals.
    I would like to call on Senator Thomas for a statement.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman, and thank you for 
holding this hearing to take a look at the proposals for 
establishment of national heritage areas. Certainly I welcome 
all of you here to the hearing.
    I have for some time had some of the same questions, Mr. 
Chairman, that you have enumerated in your statement. I hope 
that some of the witnesses, perhaps, can help us a little bit 
with the understanding of some of these issues. Obviously, 
there are unique places where it is appropriate to provide for 
Federal assistance in cooperation with State and local 
organizations. However, the notion as I understand it 
concerning heritage areas has been that after they have begun, 
that after a period of time, 10 years being the norm, these 
then turn over to local operations; and also that there be a 
maximum of about $10 million and that be used over a period of 
10 years, and then the responsibility changes to the local or 
State operations.
    All of us want to look and preserve those areas, yet there 
is, on the other hand, limitations to what we do with parks. I 
am sure the administration will be telling us that they do not 
have enough money to operate the parks we have now, and I 
suspect that is true. So in any event, I hope to be able to ask 
some questions and get some response to this idea of what is 
the criteria for the establishment of a heritage area and what 
are the facts that go with it, and are we indeed living up to 
those now.
    So I look forward to the witnesses. And thank you, Mr. 
Chairman.
    Senator Akaka. Thank you very much for your statement, 
Senator Thomas.
    Some of our colleagues are here this afternoon to speak on 
behalf of their bills. I want my colleagues to know that their 
entire statements will be in the record, so please feel free to 
summarize as you see fit.
    I would like to call on Senator Chafee for his testimony. 
Senator Chafee.

       STATEMENT OF HON. LINCOLN D. CHAFEE, U.S. SENATOR 
                       FROM RHODE ISLAND

    Senator Chafee. Thank you very much, Chairman Akaka and 
ranking member Thomas and members of the subcommittee, for 
permitting me to testify on S. 2033, a bill to reauthorize 
funding for the John H. Chafee Blackstone River Valley National 
Heritage Corridor.
    Studies show that when Americans travel they usually do so 
for two purposes: to visit sites that celebrate America's rich 
history, sites such as Independence Hall or Civil War 
battlefield sites; or to explore places of natural beauty, 
places like the Grand Canyon, the Great Smoky Mountains, or 
Yellowstone Park. The Blackstone River Valley National Heritage 
Corridor is unique because it was created with the vision of 
celebrating both the history and the natural beauty of the 
Blackstone River Valley.
    Visitors come to the corridor to witness the beauty of one 
of America's hardest working rivers, the Blackstone, as it 
winds through 24 communities from Worcester, Massachusetts, to 
Providence, Rhode Island. Visitors are also drawn to the 
corridor to learn more about the valley's unique place in 
history, represented by the mills and textile industry that 
once formed the foundation of America's industrial revolution.
    The Blackstone Valley's unique place in American history 
was secured by the arrival of an Englishman named Samuel 
Slater. Slater's intimate knowledge of the English system of 
cotton manufacturing gave rise to the age of industrial 
manufacturing and America's economic dominance. In the early 
18th century the manufacturing of cotton textiles was an 
industry dominated by the English. Samuel Slater was the first 
defector from the English textile industry to bring his 
specialized expertise of the Arkwright system to America. On 
December 20, 1790, Slater commenced spinning cotton full time, 
heralding the beginning of the American industrial revolution.
    Just as the late 18th century brought an era of economic 
prosperity to the Blackstone, the middle of the twentieth 
century ushered in a period of economic downturn. During this 
time, economic forces drove New England's thriving textile 
industry to southern States, some to Georgia--right, Senator 
Cleland?
    Senator Cleland. Yes, sir.
    Senator Chafee. A few down there to Georgia--where capital 
and labor costs were lower. As a result, the local economy 
languished and the glory of the Blackstone River was all but 
forgotten.
    Today, the corridor is undergoing a renaissance. The rise 
of tourism has combined with the creation of the Blackstone 
River Valley National Heritage Corridor in 1986 to reinvigorate 
this beautiful but forgotten place. A Federally charged 
commission works with the National Park Service and local and 
State partners to carry out the mission of the Blackstone 
Corridor.
    For over 15 years this partnership has driven change. Today 
you can visit the old Slater Mill nestled on the banks of the 
Blackstone River. A greenway provides access for bicyclists and 
hikers to explore the natural beauty of the river. National 
Park Service rangers and volunteers provide tours and educate 
visitors about the valley's rich history. All of this is being 
done with relatively little funding from the Federal 
Government, because every Federal dollar is leveraged several 
times over by State, local, and private funds.
    The Blackstone is also unique because its commission is 
federally appointed and it depends on three accounts which were 
created for its management: the operation account, the 
technical assistance account, and the development fund. A 10-
year plan completed by the commission in 1998 outlines $15 
million in needed improvements along the corridor and 
identifies a strategy for their implementation.
    Along with Senators Kennedy, Kerry, and Reed, I introduced 
S. 2033 to reauthorize the development fund to provide $10 
million in Federal funding for fiscal years 2003 through 2006. 
This authorization is consistent with the Blackstone Corridor's 
10-year plan guiding the corridor's future development needs.
    Fran Manella, Director of the National Park Service, 
recently visited the corridor and has expressed her support for 
continued authorization and funding for the corridor.
    I know that the corridor faces many challenges in the year 
ahead and I understand as well as you that these are tough 
budgetary times and money is limited. But it does seem to me 
that preserving our Nation's special places, such as the 
Blackstone Corridor, should be among our top priorities.
    By accomplishing so much with so little, I believe that the 
Blackstone Corridor offers us a model that should be expanded 
upon. I urge the subcommittee to give S. 2033 its favorable 
consideration and thank you for having me here this afternoon.
    Senator Akaka. I thank you very much, Senator Chafee, for 
your testimony on S. 2033, to authorize appropriations for the 
corridor that is named after your father. We certainly remember 
him so well, and I thank you very much for that. I have no 
questions for you.
    Do you have any questions for Senator Chafee?
    Senator Thomas. I do not know that it is a question, 
Senator. Probably I will reserve my questions for the 
administration representatives. But generally the thought on 
heritage is that there are 10 years in which there is 
involvement of the Federal Government; this started in 1986. 
Generally it is $10 million. $10 million has already been spent 
here.
    So I guess I do not question the project or so on, but if 
we have got a criteria--and I want to find out about that 
later--then what do we do, change the criteria from time to 
time? I do not know. That is the issue that I think is before 
us.
    Senator Chafee. Well, my chart shows that $5.75 million has 
been spent since fiscal year 1998. Perhaps the funding took 
awhile to be realized.
    Senator Thomas. It started in 1988.
    Senator Chafee. Perhaps the Park Service can be a little 
more explicit on those answers on the funding.
    Senator Thomas. We can wait until they come up and we will 
talk about it.
    Thank you, Senator.
    Senator Akaka. Thank you very much, Senator Chafee.
    I would like to call on Senator Cleland for his testimony.

          STATEMENT OF HON. MAX CLELAND, U.S. SENATOR 
                          FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman.
    Hearing the distinguished Senator from Rhode Island talk 
about the John H. Chafee Blackstone River Valley National 
Heritage Corridor, I am very impressed and I would like to be 
considered a cosponsor of your legislation, sir.
    Mr. Chairman, I would just like to thank you and the 
members of the committee for the opportunity to speak today 
about a bill which is extremely important to me. S. 1526 would 
establish something called the Arabia Mountain National 
Heritage Area, which would span three counties in my home 
State, Rockdale County, Henry County, and DeKalb County, 
Georgia.
    I grew up in the heart of this heritage area in a little 
town called Lithonia, Georgia, named after the Scottish hills 
west of Edinburgh, the Lithonian Hills, ``lithos'' meaning 
rock, ``onia'' meaning city--City of Rock. This is the largest 
outcropping of granite in America, just south of Stone 
Mountain, the largest single outcropping of granite in the 
world.
    This is a unique part of our country. I grew up in this 
area. My father actually had his first job working on the 
Arabia Mountain granite quarry for 50 cents a day, hauling 
tools and sharpening tools of the old Scotsmen who came there 
from places like Edinburgh. They were granite artisans. It is a 
very unique part of our State and our country.
    Now, that area, if you look at a satellite map of, say 
metropolitan Atlanta--this area is just to the southeast--I am 
told that the metropolitan area of Atlanta is the fastest 
growing human settlement in the history of our country, the 
fastest growing human settlement. It is growing in all 
directions. Every day about 50 acres of green space or trees 
are consumed by this massive growth.
    Here we have a beautiful, historic, pristine portion of 
that massive area up for preservation. That county in which I 
grew up, DeKalb County, has now over 650,000 people. Likewise, 
these other counties adjacent to it, Rockdale and Henry, have 
had tremendous growth. With the growth, we have had a lot of 
good things, but it has impacted this human settlement around 
these corridors, around this particular area, this heritage 
area, where there has been human settlement we estimate for 
some 7,000 years.
    Designation of the Arabia Mountain National Heritage Area 
would ensure the preservation of 4,500 acres of land, which 
includes the granite outcroppings of Arabia Mountain itself, 
lakes, rivers, wetlands, pine and oak forests, streams, 
farmland, including, Mr. Chairman--it is hard to believe--the 
last remaining farm in a county once known as the biggest dairy 
farming area in the State of Georgia. We are down to one farm 
and this is it. The Vaughters' Farm will be part of the 
national heritage area.
    This new area would encompass several existing preservation 
projects. The State of Georgia and the Georgia Conservancy many 
years ago put together an effort to save Panola Mountain. It is 
now known as Panola Mountain Conservation Park. Friends of my 
families that did the original granite quarry there in my home 
town, the Davidson family, they have donated the Arabia 
Mountain Nature Preserve, Miners Creek Preserve, and others 
have donated South Rockdale Community Park.
    All of this area would be preserved as a heritage area and 
preserve the unique granite-quarrying industry history that 
grew up around that city. It would enable us to save an area 
that is fast becoming extinct.
    Panola Mountain State Conservation Park, part of this 
heritage area, is already recognized as a national natural 
landmark and is home to plant species recognized by the Federal 
Government as threatened and/or endangered, as well as delicate 
mosses and lichens which can take as long as 100 years to grow 
just 1 inch.
    Heritage area designation would provide visitors to Panola 
Mountain access to guided tours of nature trails, ecological 
resources, and recently discovered Native American 
archaeological sites.
    The Arabia Mountain Heritage Area Alliance is a diverse 
group made up of political leaders, local residents, nonprofit 
organizations, environmentalists, community activists, and 
developers. All of this community have worked diligently to 
acquire necessary properties for the heritage area and have 
most recently received several tremendous donations. First of 
all, a donation of 100 acres from the Mellon Foundation, $16.5 
million in financial support from the county, DeKalb County, 
Green Space Bond Program, for the purchase of 940 acres, and 
$2.4 million from the State of Georgia for the 140-acre 
Vaughters' Farm, the last farm in the whole county.
    In addition, the National Park Service has been actively 
engaged in the development of this project. While I recognize 
the Park Service has stated it will not support any new 
heritage area designations until they have cleared their 
maintenance backlog, I am certain that they will agree that 
this project meets all necessarily criteria for designation as 
a national heritage area. I understand the budgetary restraints 
the Park Service is facing. That is why I am leading a 
bipartisan group of Senators in supporting an increase in the 
National Park Service operating budget above the President's 
request, as well as the enacted fiscal year 2002 level.
    In conclusion, Mr. Chairman and members of the committee, I 
would just like to especially thank Mr. Kelly Jordan, who is 
with us today, chairman of the Arabia Mountain Heritage Area 
Alliance, for being here to provide the committee with his 
insight into the work done by the Alliance for the purpose of 
preserving this ecological and cultural treasure. The hard work 
of Mr. Kelly and the Alliance have brought us this far and I am 
very pleased that he is here today to see the proposal take 
another important step toward realization.
    I trust the committee will give this legislation every 
consideration. I look forward to seeing S. 1526 reported out of 
the committee and sent to the full Senate for consideration.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Cleland follows:]
   Prepared Statement of Hon. Max Cleland, U.S. Senator From Georgia
    I would like to thank the Chairman and the Members of the Committee 
for the opportunity to speak today about a bill which is very important 
to me. S. 1526 would establish the Arabia Mountain National Heritage 
Area, which would span Rockdale County, Henry County, and DeKalb 
County, Georgia.
    I grew up in Lithonia, Georgia, located in DeKalb County, and over 
the years have watched as growth and development have transformed that 
County from a primarily rural area into the second most populous County 
in my State with over 650,000 people. Likewise, Rockdale and Henry 
Counties have both seen a tremendous rate of growth in recent years, 
among the highest in the United States. While this development has 
certainly brought new opportunities, it has also brought challenges in 
preserving the important natural and cultural history of an area which 
has seen human settlement for over 7,000 years.
    Designation of the Arabia Mountain National Heritage Area would 
ensure the preservation of 4,500 acres of land which includes the 
granite outcropping of Arabia Mountain itself, lakes, rivers, wetlands, 
pine and oak forests, streams, and farmland--including DeKalb County's 
Vaughters' Farm, the sole remaining farm in a county which was once 
predominantly agricultural.
    This new National Heritage Area would encompass several existing 
preservation projects--the Panola Mountain State Conservation Park, the 
Davidson Arabia Nature Preserve, the Miners Creek Preserve, and the 
South Rockdale Community Park.
    Visitors to the proposed Heritage Area would get a glimpse into the 
early settlement of DeKalb County and the granite quarrying industry 
that grew up around the City of Lithonia, while those visiting the area 
surrounding Arabia Mountain would focus on environmental recovery and 
conservation issues, early settlement, with Vaughters' Farm serving as 
an example of the evolution of farming in DeKalb County from early 
settlement farming to cotton, and the dairy industry. Panola Mountain 
State Conservation Park is already recognized as a National Natural 
Landmark and is home to plant species recognized by the Federal 
government as threatened and/or endangered, as well as delicate mosses 
and lichens which can take as long as one hundred years to grow just 
one inch. Heritage Area designation would provide visitors to Panola 
Mountain access to guided tours of nature trails, ecological resources, 
and recently discovered Native American archaeological sites.
    The Arabia Mountain Heritage Area Alliance is a diverse group made 
up of political and leaders, local residents, non-profit organizations, 
environmentalists, community activists, and developers. Together they 
have worked diligently to acquire the necessary properties for the 
Heritage Area, and have most recently received a donation of 100 acres 
from the Mellon Foundation, $16.5 million in financial support from the 
DeKalb County Greenspace Bond program for the purchase of 940 acres, 
and $2.4 million from the State of Georgia for the 140-acre Vaughter's 
Farm.
    In addition, the National Park Service has been actively engaged in 
the development of this project. While I recognize that the Park 
Service has stated it will not support any new Heritage Area 
designations until they have cleared their maintenance backlog, I am 
certain that they will agree that this project meets all necessary 
criteria for designation as a National Heritage Area. I understand the 
budgetary restraints the Park Service is facing and that is why I am 
leading a bipartisan group of Senators in supporting an increase in the 
National Park Service operating budget above the Presidents request as 
well as the enacted FY 2002 level.
    In conclusion, I would like to especially thank Mr. Kelly Jordan, 
Chair of the Arabia Mountain Heritage Area Alliance, for being here 
today to provide the Committee with his insight into the work done by 
the Alliance and the importance of preserving this ecological and 
cultural treasure. The hard work of Kelly and the Alliance have brought 
us this far and I am very pleased he is here today to see the proposal 
take another important step toward realization. I trust that the 
Committee will give this legislation every consideration and I look 
forward to seeing S. 1526 reported out of Committee and sent to the 
full Senate for consideration. Thank you very much for your time today.

    Senator Akaka. Thank you very much, Senator Cleland.
    Are there any questions?
    Senator Thomas. I guess, Senator, I am not sure I 
understand. Has there been a Park Service study?
    Senator Cleland. I think Mr. Jordan will be able to answer 
that.
    Senator Thomas. Okay, we can wait.
    Are these private lands, then, that are being acquired, I 
presume?
    Senator Cleland. Private and public.
    Senator Thomas. And public. Okay. You have already $30 
million on hand or have spent that, apparently.
    Senator Cleland. The State of Georgia, private foundations, 
and others have spent approximately that much so far, yes, sir.
    Senator Thomas. What then would be the advantage of it 
being a Federal area?
    Senator Cleland. Because of, I think, the unique 
connectivity. The heritage area would connect not only the 
little home town that was the focal point of all this granite 
quarry activity, but one of the old granite quarries itself, a 
new development which has a bikeway all the way down to Panola 
Mountain; it would connect the old farm with all of that. It 
would be in effect a green space area, very unique to that part 
of the world, that literally dates back to 7,000 years ago.
    Senator Thomas. But will it be enlarged because it is a 
Federal heritage?
    Senator Cleland. No, I think it is pretty much the shape 
that it is going to be.
    Senator Thomas. I guess that is my question. If you already 
have it in that shape, what difference does it make?
    Senator Cleland. Well, I think it gives it a designation 
and a status that it otherwise would not have; and also is in 
my opinion the social glue, the Federal social glue that keeps 
it all together, so that the individual parties have a sense of 
unity here. They are coming together on their own, and Mr. 
Jordan can talk about that process, but I think this would in 
effect seal the deal.
    Senator Thomas. I see. Thank you.
    Senator Cleland. Thank you.
    Senator Akaka. Thank you very much, Senator Cleland, for 
your testimony.
    I would like to call Senator Rick Santorum from 
Pennsylvania for your testimony.

         STATEMENT OF HON. RICK SANTORUM, U.S. SENATOR 
                       FROM PENNSYLVANIA

    Senator Santorum. Thank you very much, Mr. Chairman. I 
appreciate your willingness to recognize me promptly and I very 
much appreciate the attention of the subcommittee. This is not 
the first time I have been before this subcommittee asking for 
historic designations, and you have always treated us very, 
very kindly in Pennsylvania.
    We are back here to talk about the oil heritage region and 
I am here to introduce Ron Shoup, who is the director of the 
heritage park. It is a State heritage park. As I am sure all of 
you know from your history books, it is where oil was first 
discovered in the United States of America. Oil is somewhat of 
a significant issue in today's press, but it is a vitally 
important part of our history, it is a vitally important part 
of our future.
    And we have the beginnings with the State heritage park 
designation, but we believe this is something that has great 
national significance and really is a story that should be told 
and obviously has a tremendous impact. We are very proud of our 
oil heritage, but, as you would guess, with time that oil 
heritage has had its day. So we have been on very tough 
economic times in this region. So this would be a good thing 
for the region as well as, obviously, a great story that can 
and should be told about the history of oil development in the 
world, much less here in the United States.
    With that, Mr. Chairman, I would be happy to introduce Ron 
Shoup, who is here to testify on behalf of the park, and I look 
forward to working with the subcommittee to see if we can do 
that. I do not know if he is next to testify, but I just wanted 
to introduce him to the subcommittee, and thank you for your 
attention to his testimony when that is.
    Thank you.
    [The prepared statement of Senator Santorum follows:]
        Prepared Statement of Hon. Rick Santorum, U.S. Senator 
                           From Pennsylvania
    Chairman Akaka, Ranking Member Thomas, and Members of the 
Subcommittee: I am pleased to testify on behalf of the Oil Heritage 
Region as it seeks federal designation as the Oil Region National 
Heritage Area. As you know, I am the sponsor of Senate bill 1441, also 
joined by Senator Specter. Representative John Peterson's legislation, 
HR 695, has already been passed by the House.
    Pennsylvania has long been recognized for the leading role it has 
played in making the United States of America the world's industrial 
powerhouse. That American industrial powerhouse not only brought a 
dramatically increased standard of living for Americans, but served as 
the ``arsenal of democracy'' that has protected and sustained freedom 
through two world wars, the Cold War, and now the war on terrorism. 
Many Americans still identify Pennsylvania with its coal and steel 
industries. There is another commodity, however, discovered in our 
Commonwealth which plays an increasingly important role in our economy 
and the world economy: oil.
    Oil not only powers the vehicles that we use to commute to work and 
fuels our military aircraft engaged in operations overseas but it also 
is used in many plastics in daily household items we take for granted. 
Almost a century and a half after the first commercial oil well was 
established in Titusville, Pennsylvania in 1859, oil is more important 
to our country than ever. As we see from reading any newspaper, oil 
continues to play a key role in the U.S. economy and affects world 
geopolitics. Consider that the Senate is voting today on a proposal to 
allow domestic oil exploration that would increase U.S. domestic 
production.
    The Oil Heritage Region has a great story to tell, and designation 
as a National Heritage Area will enhance their ability to tell that 
story to an increasing stream of visitors. The assistance that this 
designation would bring would come in the form of: 1) increased 
visibility as a designated heritage area; 2) technical expertise in the 
management and preservation of Oil Heritage Region assets; and 3) 
funding for programs for promotion and enhancement of the Oil Heritage 
Region. Visitors to the Oil Region National Heritage Area would be able 
to take in the beautiful surroundings of rural northwestern 
Pennsylvania while at the same time gaining an appreciation for the 
history of oil exploration and the industrial and economic development 
that oil made possible.
    You may be aware that the Oil Heritage Region is already home to 
six national historic districts and 17 sites listed on the National 
Register of Historic Places. In addition, the Commonwealth of 
Pennsylvania designated the Oil Heritage Region as part of its own 
Heritage Park System in 1994. Finally, the National Park Service has 
already conducted a feasibility study on inclusion of the Oil Heritage 
Region in the National Heritage Area System.
    This designation will also help northwestern Pennsylvania's 
economic development. The transformation of our economy in the past 
several decades has presented challenges to industrial areas as well as 
rural communities in our Commonwealth as the American economy has 
diversified. The Oil Region National Heritage Area designation will 
help this region as it actively turns its assets-historic landmarks and 
natural and scenic areas-into an engine of economic development as a 
center of tourism and recreation.
    For this reason, there is strong community support for this 
designation, and the communities of the region have been working 
together to make the heritage designation a reality. Our witness, Mr. 
Shoup, made reference to the numerous regional entities that have 
written formal letters of support. The region's federal elected 
officials are also unanimous in their support for this designation.
    Oil has made an indelible mark on American history up to this very 
day, and will continue to play an important role in the American way of 
life for the forseeable future. The Oil Region National Heritage Area 
designation would be of invaluable assistance to this region of 
northwestern Pennsylvania that will enable it to tell current and 
future generations the important story of oil discovery and development 
and Pennsylvania's role in it.
    Thank you, Mr. Chairman, for allowing me the opportunity to testify 
on behalf of this worthy effort. I look forward to working with you and 
your staff to see that this bill is considered by the Senate at the 
earliest possible opportunity.

    Senator Akaka. Thank you very much for your testimony, 
Senator Santorum. I thank my colleagues for their testimony 
today, and it is great to hear their feelings about these 
national heritage areas. Certainly, it will help us make some 
decisions here.
    At this time I would like to call forward our first witness 
this afternoon, Ms. Brenda Barrett, the National Coordinator 
for Heritage Areas at the National Park Service. Welcome, 
Brenda.

STATEMENT OF BRENDA BARRETT, NATIONAL COORDINATOR FOR HERITAGE 
    AREAS, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Ms. Barrett. Thank you very much, Mr. Chairman. I am Brenda 
Barrett. I am the National Coordinator for Heritage Areas in 
the National Park Service, and I am here to present the views 
of the Department of the Interior on six bills. As you stated 
before, my testimony will be abbreviated and full copies will 
be provided to the committee.
    The first three bills I would like to address are the 
proposed national heritage area designations: S. 1441 and H.R. 
695 for the Oil Region National Heritage Area; S. 1526 for the 
Arabia Mountain National Heritage Area; and S. 1939 for Great 
Basin National Heritage Area. The Department of the Interior 
recognizes the appropriateness of designating all three of 
these areas, as they meet our interim criteria and have many 
indicators of success. However, we recommend that the committee 
defer action during the remainder of the 107th Congress to meet 
the President's initiative to eliminate the deferred 
maintenance backlog in the National Park System.
    In some specific comments: On the proposed Oil Region 
National Heritage Area in Pennsylvania, the Park Service has 
completed a reconnaissance report and has made a finding that 
the area meets our interim criteria. A companion bill, H.R. 
695, has passed the House last September.
    On Arabia Mountain National Heritage Area in Georgia, an 
alliance of interested citizens and organizations has prepared 
a feasibility study in partnership with the Southeast Region of 
the National Park Service, and again that study meets our 
interim criteria.
    The proposed Great Basin National Heritage Area, which 
includes White Pine County, Nevada, Miller County, Utah, and 
the Duckwater Shoshone Reservation, in that case the Great 
Basin Partnership has prepared a feasibility study that builds 
on the National Park Service's special resource study for the 
designation of Great Basin National Park.
    In the case of Great Basin Heritage Area legislation, we 
are recommending a number of proposed amendments to conform the 
bill to more recent legislative practice for heritage areas. 
These include issues having to do with the loan program and the 
funding of the historic American building survey programs. Our 
specific amendments are attached to our testimony.
    The next two bills authorize the Secretary to undertake 
suitability and feasibility studies. S. 1809 is a study bill on 
the proposed Buffalo Bayou National Heritage Area in Houston 
and a companion bill, H.R. 1776, has already passed the House.
    The next bill is S. 1638, to study the suitability and 
feasibility of designating the French Colonial Heritage Area in 
Saint Genevieve, Missouri, as a unit of the National Park 
Service. I want to note here that the heritage area designation 
for the French Colonial area is a State heritage area 
designation, and they are not a national heritage area. To 
consider designating this area as a unit of the National Park 
System, a special resource study undertaken by the National 
Park Service would be required, and that of course might look 
at a full range of management options, including designation as 
a unit, as an affiliated area, or perhaps as a national 
heritage area.
    For both of these bills, the Department supports the bills. 
However, the Department has not requested funding for these 
studies in fiscal year 2003 and believes that any funding 
requested should be directed at completing previously 
authorized studies.
    Finally, for S. 2033, to authorize an appropriation of $10 
million for the John H. Chafee Blackstone River Valley National 
Heritage Corridor in Massachusetts and Rhode Island, this 
funding is to complete the cultural heritage and land 
management plan that was approved by the Park Service in 1998. 
The Department would support this legislation if it was amended 
to authorize not more than $5 million for a period from fiscal 
year 2003 to 2007. This setting $1 million over a 5-year period 
brings this bill in, sort of in sync with the authorization 
language for other areas and corridors and would be the 
administration's full commitment to the management plan.
    The Blackstone River is a model of a successful partnership 
and has encouraged excellent planning and leveraging of many 
millions of dollars of cultural, recreational, and natural 
projects.
    This completes my testimony and I will be happy to take any 
questions.
    [The prepared statements of Ms. Barrett follow:]
    Prepared Statements of Brenda Barrett, National Coordinator for 
 Heritage Areas, National Park Service, Department of the Interior, on 
 S. 1441, H.R. 695, S. 1526, S. 1638, S. 1809, H.R. 1776, S. 1939, and 
                                S. 2033
                          s. 1441 and h.r. 695
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 1441 and H.R. 695, bills which would establish the Oil 
Region National Heritage Area.
    While the Department recognizes the appropriateness of designating 
the Oil Region National Heritage Area, we recommend that the committee 
defer action on S. 1441 and H.R. 695 during the remainder of the 107th 
Congress. To meet the President's Initiative to eliminate the deferred 
maintenance backlog, we need to continue to focus our resources on 
caring for existing areas in the National Park System. While 
designation of the heritage area will not result in additional 
acquisition or capital costs, the authorization provides for up to $1 
million per year in grant assistance costs not to exceed $10 million 
over the 15-year period after the date of the bill's enactment.
    The Oil Heritage region comprises all of Venango County and a 
portion of Crawford County in western Pennsylvania. It is known, 
appropriately, as ``The Valley That Changed the World'' due to the 
first successful oil well drilled by Colonel Edwin Drake with the 
assistance of William Smith, a Pennsylvania salt well digger, in 1859. 
This event had an overriding impact on the industrial revolution and 
continues to affect the daily life of the nation and the world.
    The region contains the world renowned Drake Well Museum in 
Titusville, Oil Creek State Park and portions of the Allegheny Wild and 
Scenic River, the latter designated by Congress in 1992, and 
administered by the U.S. Forest Service. It also contains 6 National 
Historic Districts, 17 sites listed on the National Register of 
Historic Places and an extensive collection of Victorian styled 
architecture in Franklin, Oil City, Emlenton and Titusville. Remnants 
of the oil boom era, including McClintock Well #1, the oldest operating 
well in the United States, can be found throughout the region. The 
stories of early oil magnates and those who worked in the oil fields 
provide exceptionally rich interpretive opportunities related to the 
region's natural and cultural resources. This important heritage 
contributes not only to our own national story, but also to the 
advancement of industries and transportation systems throughout the 
world.
    Oil Heritage Region is currently designated a State Heritage Park 
by the State of Pennsylvania and its management entity, the Oil 
Heritage Region, Inc., is experienced in natural and cultural resources 
preservation and heritage related programming. The management entity 
enjoys the support of local governments and organizations in the 
proposed national heritage area. Its board of directors is already 
representative of many interests in the region. The bill provides that 
the Secretary will confirm its expanded representation in approving the 
required management plan for the heritage area.
    In the opinion of the National Park Service there are four critical 
steps that need to be taken and documented prior to the Congress 
designating a heritage area. These stages are:

          1. completion of a suitability/feasibility study;
          2. public involvement in the suitability/feasibility study;
          3. demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          4. commitment to the proposal from the appropriate players 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    The National Park Service has reviewed the existing heritage and 
interpretive plans undertaken by Oil Region Heritage, Inc. beginning in 
1994 and, at the request of Congressman John Peterson, conducted a 
week-long reconnaissance visit to confirm the region's eligibility for 
designation in early August 2000. A feasibility report entitled ``Field 
Report on the Oil Region Heritage Park, Pennsylvania, as a National 
Heritage Area'' was issued subsequent to the reconnaissance visit on 
September 15, 2000. It concludes that the Oil Heritage Region meets the 
above-listed feasibility criteria for designation as a national 
heritage area.
    That completes my testimony. I would be happy to answer any 
questions that you or any of the members of the subcommittee may have.
                                s. 1526
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1526, to establish the Arabia 
Mountain National Heritage Area in the State of Georgia.
    The Department recognizes the appropriateness of designating the 
Arabia Mountain National Heritage Area, as the area has the 
characteristics necessary to be established as a national heritage area 
and the potential to meet the expectations of the National Park 
Service's national heritage area program. To meet the President's 
Initiative to eliminate the deferred maintenance backlog, we need to 
continue to focus our resources on caring for existing areas in the 
National Park System. Therefore, we recommend that the committee defer 
action on S. 1526 during the remainder of the 107th Congress. While 
designation of the heritage area will not result in additional 
acquisition or capital costs, the authorization provides for up to $1 
million per year in grant assistance costs not to exceed $10 million 
through September 30, 2016.
    The proposed Arabia Mountain National Heritage Area would include 
parts of DeKalb, Rockdale, and Henry Counties that lie within the 
eastern side of the Atlanta metropolitan area. The heritage area would 
encompass the Davidson-Arabia Mountain Nature Preserve, the city of 
Lithonia, the Panola Mountain State Conservation Park, portions of the 
South River, and several active granite quarries.
    The Arabia Mountain area, which is known primarily for its granite 
quarries, is rich in natural, cultural, and historic resources. Arabia 
Mountain and other nearby prominent granite formations have been linked 
to human settlement and activity for thousands of years, starting over 
7,000 years ago with the quarrying and trading of soapstone. The area 
contains specific types of granite outcroppings that are very rare and 
do not occur anywhere outside the Piedmont Region. Granite from this 
area has been quarried and used around the nation, including in 
buildings at the military academies at West Point and Annapolis.
    The area retains an open and small-scale character, in contrast to 
the more intensively developed areas closer in to the city of Atlanta. 
The rapid growth of the metropolitan area in recent years has prompted 
a recognition among those involved in this proposal that there may be 
only a narrow window of opportunity to retain open lands and protect 
important resources before land costs and economics of development make 
such efforts much more difficult. The local governmental entities in 
the proposed national heritage area and the State of Georgia support 
national heritage area designation for this area.
    S. 1526 would establish the Arabia Mountain National Heritage Area 
within the boundary defined by the map developed for the feasibility 
study for the heritage area. The legislation would name the Arabia 
Mountain Heritage Area Alliance as the management entity for the 
heritage area and provide for the Secretary of the Interior and the 
Alliance to carry out the legislation through a cooperative agreement. 
Provisions of the bill regarding the authority and duties of the 
management entity, the development of a management plan, and Federal 
technical and financial assistance that would be available to the 
heritage area are similar to provisions that have been included in 
legislation designating other heritage areas in recent years.
    National heritage areas are places where natural, cultural, 
historic, and recreational resources combine to form a nationally 
distinctive landscape arising from patterns of human activity shaped by 
geography. Heritage conservation efforts are grounded in a community's 
pride in its history and traditions, and its interest in seeing them 
retained. The areas are designed to protect large, regional landscapes 
and resources that tell the story of its residents. They are best 
managed by entities with broad community representation and the ability 
to foster partnerships throughout the region.
    In the view of the National Park Service, there are four critical 
steps that need to be completed before Congress establishes a national 
heritage area. Those steps are:

          1. completion of a suitability/feasibility study;
          2. public involvement in the suitability/feasibility study;
          3. demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          4. commitment to the proposal from the appropriate players 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    The National Park Service believes that those criteria have been 
fulfilled through the work that was done by the Arabia Mountain 
Heritage Area Alliance and other entities, including the National Park 
Service, in conducting the feasibility study that was issued in 
February, 2001. The work that has been done by the Arabia Mountain 
Heritage Area Alliance and its many partners in recent years has served 
to confirm our view that this area would be an appropriate candidate 
for designation as a national heritage area, once sufficient progress 
has been made in addressing the backlog of deferred maintenance in the 
National Park System.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                s. 1638
    Mr. Chairman, thank you for the opportunity to present the 
Department's views on S. 1638, a bill to authorize the Secretary of the 
Interior to study the suitability and feasibility of designating the 
French Colonial Heritage Area in the State of Missouri as a unit of the 
National Park System.
    The Department supports S. 1638, with the minor clarification 
provided in this testimony. However, the Department did not request 
additional funding for this study in Fiscal Year 2003. We believe that 
any funding requested should be directed towards completing previously 
authorized studies. Presently, there are 38 studies pending, of which 
we hope to transmit 15 to Congress by the end of 2002. To meet the 
President's Initiative to eliminate the deferred maintenance backlog, 
we must continue to focus our resources on caring for existing areas in 
the National Park System. Thus, we have concerns about new funding 
requirements for either a new park unit or heritage area that could be 
required if the study recommends designation while the Department is 
trying to eliminate the deferred maintenance backlog. As such, the 
Department will identify in each study all acquisition, one-time, and 
operational costs of the proposed site. At this time, these costs are 
not known.
    S. 1638 directs the Secretary to study the suitability and 
feasibility of including the French Colonial Heritage Area of Ste. 
Genevieve County, Missouri, as a unit of the National Park System. 
Section 3(1) defines the Heritage Area as including the Bequette-
Ribault, St. Gemme-Amoureaux and Wilhauk homes, and the related and 
supporting historical assets in Ste. Genevieve County, Missouri. 
Related and supporting historical assets include Le Grand Champ, 
historic downtown Ste. Genevieve, and a prehistoric Native American 
Village.
    In April 1980, the Midwest Regional Office of the National Park 
Service completed a brief Reconnaissance Report of Ste. Genevieve. A 
memorandum forwarding the report to Washington, signed by the Regional 
Director, recommended that a study of alternatives be prepared for both 
the existing townsite of Ste. Genevieve, and for the archeological site 
on which the town was originally located. The term ``Study of 
Alternatives'' is synonymous with study of suitability and feasibility 
as used in S. 1638.
    The Reconnaissance Report looked at the area's cultural, natural, 
scenic, and recreational resources as well as ownership patterns and 
possible threats to the area. This earlier report will provide valuable 
background should this legislation be enacted authorizing a more in-
depth study of suitability, feasibility, and management alternatives.
    We discussed the intent of the legislation with the bill's sponsor. 
S. 1638 authorizes the Secretary to study the suitability and 
feasibility of designating the French Colonial Heritage Area as a unit 
of the National Park System. The National Park Service uses the term 
``Heritage Area'' to define a regional entity having a central theme 
that does not include management by the National Park Service, whereas 
the term ``Unit'' is used when an area is managed wholly or in part by 
the Service.
    We confirmed that the intent of the bill is to authorize the 
Secretary to study the French Colonial Historic District and 
accompanying resources within Ste. Genevieve County as a potential unit 
of the National Park System. This Special Resource Study will identify 
and explore a range of management possibilities, which could include a 
unit, such as a National Historic Site, managed by the National Park 
Service as well as management as a Heritage Area by a non-Federal 
entity. We will be happy to work with the subcommittee staff to develop 
any clarifying language that may be required.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                         s. 1809 and h.r. 1776
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1809 and H.R. 1776. These 
bills would authorize the Secretary of the Interior to study the 
suitability and feasibility of establishing the Buffalo Bayou National 
Heritage Area in west Houston, Texas.
    The Department supports the intent of both S. 1809 and H.R. 1776 
and we recommend approval of H.R. 1776, as passed by the House of 
Representatives on October 30, 2001. However, the Department did not 
request additional funding for this study in Fiscal Year 2003. We 
believe that any finding requested should be directed towards 
completing previously authorized studies. Presently, there are 38 
studies pending, of which we hope to transmit 15 to Congress by the end 
of 2002. To meet the President's Initiative to eliminate the deferred 
maintenance backlog, we must continue to focus our resources on caring 
for existing areas in the National Park System. Thus, we have concerns 
about new funding requirements for a new heritage area that could be 
required if the study recommends designation while the Department is 
trying to eliminate the deferred maintenance backlog. As Such, the 
Department will identify in each study all acquisition, one-time, and 
operational costs of the proposed site. At this time, these costs are 
not known.
    Both S. 1809 and H.R. 1776 outline the characteristics and 
qualities of the Buffalo Bayou area in Houston, Texas including the 
history and role of the Bayou in the creation and development of the 
city. The bills authorize the Secretary of the Interior to conduct a 
suitability and feasibility study to determine if the area known as 
Buffalo Bayou in Houston, Texas could be designated as a national 
heritage area. S. 1809 and H.R. 1776, as introduced, authorize $200,000 
in Fiscal Year 2002 to fund the study, with a report due to Congress 
describing the results of the study.
    In a July 17, 2001 hearing, the Department testified that we could 
support H.R. 1776 if amended to make the bill similar to previous 
national heritage area study bills. At the subcommittee markup, H.R. 
1776 was amended incorporating the Department's suggestions. The 
amendments included providing a more definitive boundary for the area 
to be studied and inserting a new paragraph in the bill which states 
that the study include analysis and documentation that the Study Area:

          (A) has an assemblage of natural, historic, and cultural 
        resources that together represent distinctive aspects of 
        American heritage worthy of recognition, conservation, 
        interpretation, and continuing use, and are best managed 
        through partnerships among public and private entities and by 
        combining diverse and sometimes noncontiguous resources and 
        active communities;
          (B) reflects traditions, customs, beliefs, and folklife that 
        are a valuable part of the national story;
          (C) provides outstanding opportunities to conserve natural, 
        historic, cultural, and/or scenic features;
          (D) provides outstanding recreational and educational 
        opportunities;
          (E) contains resources important to the identified theme or 
        themes of the Study Area that retain a degree of integrity 
        capable of supporting interpretation;
          (F) includes residents, business interests, non-profit 
        organizations, and local and state governments who are involved 
        in the planning, have developed a conceptual financial plan 
        that Outlines the roles for all participants including the 
        federal government, and have demonstrated support for the 
        concept of a national heritage area;
          (G) has a potential management entity to work in partnership 
        with residents, business interests, non-profit organizations, 
        and local and state governments to develop a national heritage 
        area consistent with continued local and state economic 
        activity; and
          (H) has a conceptual boundary map that is supported by the 
        public.

    Again, H.R. 1776, as passed by the House of Representatives, 
includes the amendments incorporating the Department's suggestions; we 
therefore recommend its approval.
    The National Park Service has not had extensive involvement in the 
Houston area. However, the Rivers, Trails and Conservation Assistance 
Program (RTCA) has worked with the Buffalo Bayou Partnership and other 
local groups to establish a 5 mile rail-trail that runs parallel to the 
Bayou. Through that work, and from review of planning documents and 
activities surrounding the Bayou, it is clear that this area of Houston 
was central to the creation of the city. The Bayou has now become a 
focal point for downtown Houston, encouraging its residents to enjoy, 
use, and appreciate their great resources today as the city continues 
to renew and define itself.
    It is also evident that the groups and communities in the Houston 
area value their heritage and open space and are looking for ways to 
maintain and enhance these qualities. A study that looks at the 
natural, cultural, and recreational significance and values of the area 
could make recommendations oil the best method to protect and use these 
resources while retaining the character of this part of' Houston.
    As we have previously testified, there are several steps we believe 
should be taken prior to Congress designating a national heritage area 
to help ensure that the heritage area is successful. Those steps are:

          1. completion of a suitability/feasibility study,
          2. public involvement in the suitability/feasibility study;
          3. demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          4. commitment to the proposal from the appropriate players 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    Previous work in the community demonstrates the commitment to the 
idea of pursuing a study to look at further protection and preservation 
options. It is also apparent that there is widespread support for the 
Buffalo Bayou that will ensure public involvement. A critical element 
of the study will be to evaluate the integrity of the resources and the 
nationally distinctive character of the region before recommending 
national heritage area designation.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                s. 1939
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you to present the views of the Department 
of the Interior on S. 1939, a bill to authorize the establishment of 
the Great Basin National Heritage Area in Nevada and Utah.
    The Department recognizes the appropriateness of designating the 
Great Basin National Heritage Area, as the area has the characteristics 
necessary to be established as a national heritage area and the 
potential to meet the expectations of the National Park Service's 
national heritage area program. However, we recommend that the 
committee defer action on S. 1939 during the remainder of the 107th 
Congress. The Department has reviewed our progress on the President's 
Initiative to eliminate the deferred maintenance backlog, and it is 
clear that we need to continue to focus our resources on caring for 
existing areas in the National Park System. While the designation of 
the heritage area will not result in additional acquisition or capital 
costs, the authorization provides for grant assistance costs not to 
exceed $10 million through the year 2020. At such time as this 
legislation moves forward, we support the amendments outlined in this 
testimony. S. 1939 would establish the Great Basin National Heritage 
Area in White Pine County, Nevada, Millard County, Utah and on the 
Duckwater Shoshone Reservation, including the towns of Delta, Utah, 
Ely, Nevada, and the surrounding communities.
    The bill designates the Great Basin Heritage Area Partnership as 
the management entity for the Heritage Area. The management entity 
would be made up of representatives appointed by the Board of County 
Commissioners of Millard County, Utah, White Pine County Nevada, and 
Native American Tribes participating in the heritage area. The bill 
also authorizes the development of a management plan for the Heritage 
Area. If the plan is not submitted within five years, the Heritage Area 
becomes ineligible for federal funding. Additionally, S. 1939 outlines 
the duties of the management entity and prohibits the use of federal 
funds to acquire real property or interests in real property.
    The management entity is authorized to spend federal funds on non-
federally owned property. At the request of the management entity, the 
Secretary would be authorized to provide technical and financial 
assistance to develop and implement the management plan. S. 1939 
authorizes $10,000,000 in appropriations, through the year 2020, and 
limits federal funding to 50 percent of the total cost of any 
assistance or grant.
    The creation of the Great Basin National Heritage Area would 
encompass the long history of Western habitation and development 
related to the pony express, mining, ranching, railroading, Native 
Americans, and Mormon and other pioneer settlements, as well as 
demonstrating the diversity of western culture and how people of Greek, 
Chinese, Basque, Serb, Croat, Italian, Hispanic, and Native American 
descent have influenced it.
    On a natural scale the heritage area would provide a new 
partnership for management and protection of long natural vistas, 
isolated high desert valleys, mountain ranges and among the best air, 
water and night sky qualities found in the United States. Few roadways 
interrupt the basin and range topography. Large herds of mammals are 
often present. The area is recognized by the State of Nevada as the 
``Loneliest Highway in America,'' capitalizing on western landscape 
values.
    A natural partnership between Great Basin National Park and the 
Management Entity of the Heritage Area could be created; one which 
incorporates the enabling legislation of the park, allowing further 
interpretation of the 200,000 square miles of the Great Basin through 
association with other organizations.
    The National Park Service has defined a National Heritage Area as a 
place where natural, cultural, historic and recreational resources 
combine to form a nationally distinctive landscape arising from 
patterns of human activity. Heritage conservation efforts are grounded 
in a community's pride and interest in its history and traditions. 
Preserving the integrity of the cultural landscape and local stories 
means that future generations will be able to understand and define who 
they are, where they come from, and what ties them to their home.
    As we have previously testified, there are several steps the 
National Park Service believes should be taken prior to Congress 
designating a national heritage area to help ensure that the heritage 
area is successful. The steps are:

          1. completion of a suitability/feasibility study;
          2. public involvement in the suitability/feasibility study;
          3. demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          4. commitment to the proposal from the appropriate players 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    We believe that studies that have been completed or are underway 
meet the intent of these criteria. The proposed establishment is based 
on many years of work conducted by various local community 
organizations in Utah and Nevada, culminating in The Strategy for 
Development of the Great Basin Heritage Route prepared by the Great 
Basin Heritage Route Partnership, with input from a cross-section of 
citizens in the region. This report and other related reports conducted 
in Utah and Nevada have included organizations, agencies, tribal 
representatives, and potential partners who would be involved in the 
creation and management of a National Heritage Area. This coalition is 
consistent with Secretary Norton's ``4-Cs'' effort, demonstrating the 
benefits of consultation, communication and collaboration in the 
service of conservation.
    Additional reports and studies that address a Great Basin National 
Heritage Area include The Baker and Great Basin National Park Business 
Plan: A Regional Integrated Tourism Development Study, prepared in part 
by the Great Basin Business and Tourism Council and the National Trust 
for Historic Preservation. Additionally, a Cultural Resources Survey, 
funded through the Utah State Division of History, is in the process of 
being completed. Funds have also been set aside by the Nevada 
Department of Economic Development to begin writing a management plan 
for the area. Although not specifically related to the Great Basin 
National Heritage Area when they were prepared, the National Park 
Service completed two new area studies, in 1980 and 1981, of the Great 
Basin area which examined resources and identified sites with potential 
for representing the Great Basin theme.
    The completed studies as well as those in progress have generated 
popular support for this proposal and have been accomplished with 
little involvement from the National Park Service. Taken together, the 
studies accomplish goals similar to those undertaken in a National Park 
Service study.
    At such time as S. 1939 moves forward, we recommend the following 
amendments. These suggestions are either consistent with amendments we 
have suggested in previous heritage area bills or will conform S. 1939 
to recent heritage area legislation.
    Section 7(a)(1) of the bill gives the management entity the 
authority to make loans to various entities. No criteria or 
administrative guidelines are provided, and possible liability is not 
addressed. We believe there are more effective ways for management 
entities to use limited federal funds than creating loan programs.
    Section 8(b) authorizes the Secretary to expend federal funds on 
non-federally owned property to further the purposes of the Act. 
Section 8(b)(2) directs the Historic American Building Survey (HABS) 
and the Historic American Engineering Record (HAER) to conduct studies 
necessary to document the industrial, engineering, building, and 
architectural history of the region. We feel that federal funds 
authorized in the bill for the heritage area's management entity are 
for implementation of their plan and to address these types of issues. 
Money for any studies by HABS/HAER should come from the heritage area's 
funding as part of its planning process. We strongly urge that this 
section be removed from the bill.
    We also suggest several amendments that would conform S. 1939 to 
similar, recently passed heritage area legislation. These amendments 
include defining the boundaries, clarifying the role of tribal 
representatives in the management entity, standardizing the development 
of the management plan, as well as the termination of authority and 
appropriations language. Our proposed amendments are attached to this 
testimony.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                      proposed amendments--s. 1939
    Page 6, line 25, before the period, insert ``in Nye County, Nevada. 
The boundaries of the Heritage Area shall be specified in detail in the 
management plan developed in Section 6.''.
    Page 7, line 2, strike ``As a condition for the receipt of Federal 
funds under this Act, the'' and insert ``The''.
    Page 7, line 21, after ``Utah,'' insert ``and the tribal governing 
body of each Native American Tribe participating in the Heritage 
Area''.
    Page 9, line 12, strike ``5'' and insert ``3''.
    Page 9, line 13, strike ``may'' and insert ``shall''.
    Page 13, line 16, strike ``loans and''.
    Page 17, line 4, strike ``(b) SPENDING FOR NON-FEDERAL PROPERTY.'' 
and all that follows through line 18, and redesignate subsections (c), 
(d), and (e), as subsections (b), (c), and (d), respectively.
    Page 17, line 25, strike ``Federal,''.
    Page 19, line 3, strike ``September 20, 2020'' and insert 
``September 30, 2012''.
    Page 19, line 6, insert before the period '', of which not more 
than $1,000,000 is authorized to be appropriated for any 1 fiscal 
year''.
                                s. 2033
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2033. a bill to authorize appropriations for the John H. Chafee 
Blackstone River Valley National Heritage Corridor. S. 2033 provides 
for an authorization of $10 million in development funds to the 
Secretary for 4 years. The legislation would provide authority to the 
Secretary to make matching grants through Fiscal Year 2006, and 
encourage the implementation of the remaining portions of the Cultural 
Heritage and Land Management Plan, as approved by the Secretary in 
1998. The funds would be available until expended.
    The Department would support this legislation if amended to 
authorize not more than $5 million, available for fiscal years 2003 
through 2007, of which not more than $1 million may be used any fiscal 
year. This amendment would bring the funding language of the underlying 
Act in line with the appropriations authorization language for other 
National Heritage Areas and Corridors and, as noted below, would 
fulfill the commitment to the 1988 management plan. Moreover the 
amendment would forestall the expectation of additional funding for 
other National Heritage Areas and Corridors. Additionally, we believe 
that the $5 million increase is reasonable within the larger context of 
the Department's commitment to the President's Initiative to eliminate 
the deferred maintenance backlog.
    The Blackstone River Valley National Heritage Corridor was one of 
the first National Heritage Areas when Congress established it in 1986. 
Public Law 99-647 established the Blackstone Corridor to preserve and 
interpret, for the educational and inspirational benefit of future 
generations, the unique and significant contributions to our national 
heritage of historic and cultural lands, waterways and structures 
within the Blackstone River Valley in Massachusetts and Rhode Island. A 
Federal Commission was established to develop and implement an 
integrated resource management plan for the Heritage Corridor. Under 
current law, the term of the Heritage Corridor Commission expires in 
2006, while the federal designation of the area and its boundaries 
continues in perpetuity.
    In 1996, Congress, pursuant to Public Law 104-333, extended the 
life of the National Heritage Corridor Commission until November 12, 
2006. Because the plan for the Heritage Corridor had not been revised 
and approved, Congress only authorized preliminary funding of $5 
million in development funds for 3 years. The Secretary did not sign 
the management plan until 1998 and Congress again authorized $5 million 
in development funds for an additional 2 years.To date the Heritage 
Corridor has received $5.7 million dollars under these two 
authorizations for development funds. S. 2033 in effect would authorize 
development funds for the remaining 4 years of the term of the 
Commission and for the remaining commitment to the Cultural Heritage 
and Land Management Plan.
    The John H. Chafee Blackstone River Valley National Heritage 
Corridor has special value to the National Park Service, as well as to 
the nation. With almost 15 years of experience behind it, the John H. 
Chafee Blackstone River Valley National Heritage Corridor has been the 
model of a successful partnership between the federal government, state 
and local government, and partner organizations. The unique qualities 
of the Heritage Corridor is exemplified by the fact the there are 
permanent park staff assigned to the area. Matching grants from the 
Secretary permit the Heritage Corridor Commission and the Secretary to 
provide seed funding to allow important resources to be protected and 
interpreted.
    Traditionally Congress would have addressed the nationally 
significant resources of the Blackstone Valley by establishing a unit 
of the National Park System. The area, with well over 10,000 historic 
structures and over 40 historic New England villages is nationally 
significant as the birthplace of the American Industrial Revolution. 
Rather than one town or one factory, the Blackstone River Valley 
contained hundreds of historic factories and farms making it the first 
area in the nation to make widespread use of waterpower.
    A multi-agency partnership with emphasis in the interpretation of a 
cultural landscape rather than federal ownership and regulation, was 
considered the more appropriate protection strategy for such a large 
area where people continue to live and work. The Blackstone Valley 
exemplifies a seamless system of local, state and federal efforts where 
people are working on a regional scale to maintain historical integrity 
by developing integrated protection and economic development strategies 
to enhance their quality of life and quality of resources. As one of 
the first National Heritage Areas established. the Heritage Corridor 
has become a model of how the National Park Service can work 
cooperatively with partners to achieve resource protection and public 
support. By comparison to the significant management expense of 
national parks in the Northeast, the Heritage Corridor demonstrates 
what can be achieved with modest investment, and a small but 
enthusiastic team of NPS professionals on the ground. Land ownership 
and operations of the area remain with the non-federal partners and the 
NPS assists with interpretation and planning.
    The Heritage Corridor has been so successful in leveraging hundreds 
of millions of dollars toward projects that enhance the cultural and 
natural resources that Congress recognized the late Senator Chafee and 
his dedication and hard work in establishing the Heritage Corridor, by 
renaming it the John H. Chafee Blackstone Valley National Heritage 
Corridor. Of all his notable activities, as a U.S. Marine, as Secretary 
of the Navy. as Governor of Rhode Island, and as United States Senator, 
his wife, Mrs. Virginia Chafee, said most of all it would have been his 
wish for this Heritage Corridor to carry his name.
    The 1998 plan has four core commitments totaling $15 million: (1) 
shaping a visitor experience that engages people in the understanding 
of the American Industrial Revolution; (2) preserving and enhancing the 
communities of the Blackstone Valley; (3) balancing conservation and 
growth that allows for the preservation of cultural and natural 
resources while encouraging economic growth; and (4) a commitment to 
improving the health of the Blackstone River and its watershed. The 
proposed $5 million increase in authorization to the Secretary for 
development funds would fulfill the commitment to the 1998 management 
plan.
    Having received a total of $10.7 million in construction funds in 
the last ten years, which includes funds previously authorized as 
development and demonstration funds, the Commission is well on its way 
to achieving the commitments of the management plan. Several examples 
of how the heritage partnership formula has worked include the 
following: Blackstone Valley Visitor Center/Slater Mill Historic Site--
A $5.4 million historic development, with Heritage Corridor funding of 
approximately $800,000. Museum of Work and Culture: an abandoned mill 
building located in the center of the City of Woonsocket, total cost 
$2.9 million, with Heritage Corridor funding of approximately $500,000. 
River Bend Farm Interpretive Center: A dairy farm in Worcester County, 
MA restored as an interpretive center and outdoor recreation center, 
total cost of project $468,000, with Heritage Corridor funding of 
approximately $143,000. The Blackstone Riverway: A major restoration 
project providing for recreation, riverfront development, and restored 
water quality, total cost approximately $180 million, with Heritage 
Corridor funding of approximately $1.2 million.
    This completes my testimony. I would be happy to answer any 
questions that you or any members of the subcommittee may have.

    Senator Akaka. Thank you very much for your testimony, Ms. 
Barrett.
    The administration is opposing the designation of new areas 
in order to fund the President's budget priorities, especially 
maintenance backlog needs. Apart from that general concern, it 
appears that the Department recognizes that the proposed new 
areas--the Oil Region, the Arabia Mountain, the Great Basin 
Heritage areas--are appropriate for designation. Is that 
correct?
    Ms. Barrett. Yes, that is correct.
    Senator Akaka. Two of the bills we are considering this 
afternoon authorize the Park Service to study an area for a 
potential designation. For other areas, such as Arabia Mountain 
and Great Basin, private organizations appear to have 
undertaken their own study. Is there an advantage to a Park 
Service study as compared to a study undertaken by a private 
organization? And where there are private studies, does the 
Park Service have any role in approving the contents of the 
study?
    Ms. Barrett. Heritage areas, as you may or may not know, 
are a partnership activity and they are often coming up from 
the local grassroots community. I think it is very appropriate 
that in many cases the heritage area support group, the local 
community, undertake the feasibility study. But what is 
important is that they follow the interim criteria that the 
Park Service has been using for heritage areas and that they 
involve Park Service staff, usually from the regional office, 
in setting out the parameters of the study. In the case of all 
of the three proposed designations, that has occurred.
    Senator Akaka. Some of the heritage area initiatives would 
authorize $10 million in appropriations over 10 years, and 
others spread the funds over 15 years. We have different time 
periods here. Can you please provide your views on the 
appropriate length of time for an authorization of funding for 
a heritage area?
    Ms. Barrett. In general, the Department has been supporting 
a 10 years, $10 million time frame. However, there is a 
proposal on the House side to develop a more generic 
legislation to standardize heritage areas, and one of the 
things that they are looking at in that bill is doing a lot of 
the planning, feasibility planning and management planning, up 
front before designation, which would allow the heritage areas 
to really go into gear, when they are designated they would be 
ready to spend their funding.
    Senator Akaka. From time to time there have been proposals 
to create a generic ``heritage area law.'' What is the Park 
Service's position on the merits of having a generic law for 
the creation of heritage areas?
    Ms. Barrett. We are working very closely with the House 
committees and with Congressman Hefley on a proposed 
programmatic bill for heritage areas. In fact, there was a 
subcommittee markup today, so we are working extremely closely 
with them.
    Senator Akaka. As I mentioned earlier, the number of 
heritage areas has increased significantly in the past few 
years and many more potential areas are being proposed. In your 
opinion, is there a point where the designation of too many 
heritage areas becomes a problem?
    Ms. Barrett. I certainly think that, from the point of view 
of looking at important living landscapes in this country, 
there are other opportunities to work with local communities. 
So I think that there are certainly other possible national 
heritage areas out there. Although at this time the 
Administration would like to focus its attention on addressing 
the maintenance backlog, I do not think that we have taken a 
position that there are not other important heritage area 
projects that in the future could be undertaken.
    Senator Akaka. The next two questions pertain to the John 
H. Chafee Blackstone Valley National Heritage Corridor, and 
then that will be the last of my questions. There appears to be 
a disagreement between the Corridor proponents and the Park 
Service regarding the funding needed under the 1998 plan for 
the John H. Chafee Blackstone Valley National Heritage 
Corridor. The Corridor proponents contend that only $5.7 
million of the necessary $15 million has been appropriated, so 
there is a need for a $10 million authorization to fulfill 
commitments to the plan.
    Your testimony, however, states that an authorization of $5 
million would be sufficient to meet the plan's needs. Can you 
please explain this difference?
    Ms. Barrett. Well, I think one of the reasons that we 
proposed a $5 million figure was to be more consistent with 
other national heritage area appropriations. We feel that that 
amount of funding would meet, at least meet our, the National 
Park Service's, commitment toward that plan.
    Senator Akaka. The Blackstone Valley Heritage Corridor was 
the first heritage area created, several years before the 
current framework for heritage areas was established. Your 
testimony recognizes that the Blackstone Valley contains 
nationally significant resources which could have merited 
designation as a unit of the National Park System rather than 
as a heritage corridor. Should the Blackstone Valley Heritage 
Corridor be treated differently from other heritage areas with 
regard to levels and with regard to duration of funding?
    Ms. Barrett. Well, let me just say that the Blackstone 
Heritage Corridor was one of the first national heritage areas 
or national heritage corridors. And at that time the Park 
Service had not come up with a heritage area model. We were 
still in an experimental mode.
    The Blackstone Corridor is different from other heritage 
areas in the sense that it has a superintendent, it has more 
Park Service staff. It is a different kind of animal than some 
of the later heritage areas. So I think that that is one of the 
reasons that we are interested in providing it longer term 
support than other heritage areas.
    Senator Akaka. Thank you very much.
    Senator Thomas.
    Senator Thomas. Just in brief, what is the criteria to make 
an area eligible for designation as a heritage area?
    Ms. Barrett. Well, we have a long list of elements, 
resource criteria that need to be looked at for a feasibility 
study, including the assemblage of cultural, natural, 
recreational resources in the area. Then we really want to look 
also at the level of public support for the heritage area. One 
of the critical things for heritage areas is that there be 
strong local public support and also in many cases be strong 
State support, too. For those heritage areas which are often 
these large living landscapes to work, you need to have the 
local communities involved and the stakeholders there involved, 
you need to have a State government in many cases supportive of 
the area.
    Senator Thomas. If that is a criteria, why do you say ``in 
many cases''?
    Ms. Barrett. Excuse me. It is a criteria. In some cases 
State government----
    Senator Thomas. Are there criteria that you measure against 
each of these that are the same?
    Ms. Barrett. In some cases State governments are not as 
involved as in other cases, but in all----
    Senator Thomas. Then that is not a criteria.
    Ms. Barrett. In all cases, local communities must be fully 
involved.
    Senator Thomas. I have a sense that the criteria is not 
very clear.
    Ms. Barrett. Well, the criteria--at this time we have 
written criteria, which I would be glad to provide a copy, but 
it has not been adopted in a statutory programmatic way.
    Senator Thomas. Using that criteria, have you ever found 
one that is ineligible?
    Ms. Barrett. I think the National Park Service in many 
cases, particularly working through our regional office, have 
discouraged proposed heritage area initiatives because they 
have not--they do not seem to have sufficient public support or 
they do not have the assemblage of resources that would make a 
good heritage area.
    I think one example of a study where we did not recommend 
national heritage area designation was for the Northern 
Frontier study in New York State. I would be happy to get you a 
reference to that particular study.
    Senator Thomas. So my question is: have you turned down, 
found them ineligible?
    Ms. Barrett. We have, both specifically in the study, but 
in many cases we have discouraged people from moving forward as 
we work with people at the local community level.
    Senator Thomas. I think one of the difficult things for us 
is the lack of real criteria, because we all can get up and 
speak glowingly about the need that we have, and if there is 
not pretty good criteria, why, it goes on and on.
    One of the criteria that has generally been is what, 10-
year designation?
    Ms. Barrett. Yes. In general that has been, for more recent 
heritage areas, when the National Park Service has the 
opportunity to comment on bills, we generally recommend 10 
years and $10 million.
    Senator Thomas. But that is not a criteria?
    Ms. Barrett. No. And to be honest, at this time we do not 
have any statutorily adopted criteria.
    Senator Thomas. Many of them have the 10-year, $10 million 
limitations in them, do they not?
    Ms. Barrett. Yes, they do.
    Senator Thomas. Why is that not used generally as a 
criteria?
    Ms. Barrett. It usually is the recommendation of the 
National Park Service----
    Senator Thomas. That is what is in the House committee, I 
believe, is it not?
    Ms. Barrett. Yes, that is in the House committee bill.
    Senator Thomas. Have you terminated any at the end of 10 
years?
    Ms. Barrett. No, we have not. Now, a large number of 
heritage areas were authorized, I think it was nine heritage 
areas, were authorized in 1996, and there have been quite a few 
authorizations since that time. So in many cases we have not 
reached the 10-year benchmark.
    Senator Thomas. But in many cases you have.
    Ms. Barrett. Well, I think there are four heritage areas 
that were designated prior to that time.
    Senator Thomas. What is it, the Blackstone----
    Ms. Barrett. Illinois/Michigan, the Blackstone Heritage 
Area, the Delaware and Lehigh, Quinnibog and Shawtucket.
    Senator Thomas. It was in 1986 for Blackstone.
    Ms. Barrett. Yes.
    Senator Thomas. And I think you have already done $10 
million, have you not?
    Ms. Barrett. Yes, we have.
    Senator Thomas. But you are going to do more, or you are 
prepared to do more?
    Ms. Barrett. Again, I think the Blackstone, its legislation 
and its planning was developed in some cases before we came up 
with a more standardized approach to heritage areas.
    Senator Thomas. How many studies do you have pending?
    Ms. Barrett. There are 38 studies overall that the Park 
Service has pending at this time. I would have to get back with 
you on exactly how many of them are national heritage area 
studies. But in some cases, of course, in a special resource 
study we might be looking at a full range of alternatives, 
which might be unit designation or it might be a national 
heritage area designation.
    Senator Thomas. So you have recommended in some of these 
instances that they not have a study this year because of the 
backlog, is that it?
    Ms. Barrett. Yes.
    Senator Thomas. I think there are 23 pending, as a matter 
of fact.
    Ms. Barrett. Of heritage areas?
    Senator Thomas. Heritage, yes.
    Okay, well, the chairman has already asked--it just seems 
to me that it is going to be necessary, and we have been doing 
this now for quite a while, to come up with a more specific set 
of criteria, a specific set of rules that we adhere to.
    What do you think?
    Ms. Barrett. Well, again, we are working very closely with 
Congressman Hefley and with the committee staff on the House 
side on a bill that would lay out a national heritage area 
policy for the Nation.
    Senator Thomas. Then you would stick to that?
    Ms. Barrett. Absolutely. If we had a legislative framework, 
we would of course stick to it.
    Senator Thomas. I know, but you have not, you see, in the 
past, and that is what is kind of troublesome. We have these 
criterias, but then we find differences and we find they have 
been handled differently. So that encourages people to come and 
ask for differences. And I think it is very important that the 
Park Service either develop their own, or we get one passed 
somehow.
    I think the chairman also asked, do you see a time when, 
some limitation? We hear all the time that you do not have 
enough money. But yet you continue to take on more 
responsibilities all the time.
    Ms. Barrett. Well, I think we cannot resist carrying out 
our conservation mission whenever we can. One of the 
interesting----
    Senator Thomas. Wait a minute. Now, you cannot say that.
    Ms. Barrett. You cannot----
    Senator Thomas. You are not doing this one because you do 
not have enough money, but you are going to do this one because 
you think you are carrying out your mission--that does not 
match.
    Ms. Barrett. Right. We, you know, we work with many local 
groups. But the other thing with national heritage area 
designation is many of them, if you look at the map, are on the 
east coast and many of the more recent bills are moving to the 
west coast. So I just think it is sort of an interesting 
phenomenon, that the national heritage areas, there are lots of 
them in the East and many of the proposals are now in the West.
    Senator Thomas. Well, I will not take more of your time, 
but I do think we have this special designation, we are not 
making them a park for various reasons, and so I think the idea 
of a limited amount of money and a limited amount of time in 
which then the locals take it over is a very reasonable thing 
to do, and that we cannot just keep going on and on and on with 
the criteria that you can change and muster and go. So I hope 
we are able to do some of that.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for your questions.
    I want to thank Ms. Barrett for her testimony and 
responses. Thank you very much.
    Ms. Barrett. Thank you, and I will get back to you with the 
specific information.
    Senator Thomas. Thank you.
    Senator Akaka. Now I would like to ask the next panel of 
witnesses to come forward: Ms. Denys Koyle, secretary, Great 
Basin Heritage Area Partnership from Baker, Nevada; also Mr. 
Ronald Shoup, executive director, Oil City Area Chamber of 
Commerce; and Mr. Jim Baker, site administrator, Felix Valle 
House State Historic Site; and Mr. Kelly Jordan, chair of the 
Arabia Mountain Heritage Area Alliance.
    Let me remind each of you that your written testimony will 
be included in full in the hearing record, so you may summarize 
your remarks. So may I then call on Ms. Koyle for your 
testimony.

 STATEMENT OF DENYS M. KOYLE, SECRETARY, GREAT BASIN HERITAGE 
                  AREA PARTNERSHIP, BAKER, NV

    Ms. Koyle. Thank you, Mr. Chairman. It is my pleasure to 
address the subcommittee on behalf of the Great Basin Heritage 
Area. My written testimony covers the boundaries and membership 
of the heritage area as well as the development history. With 
my time here, I would like to tell you what you would 
experience if you were to travel the Great Basin Heritage Area.
    You could begin in Fillmore, Utah, and visit the state 
house of the Territory of Deseret, which was built at the 
direction of Brigham Young in 1850. Then traveling through 
Millard County on Highway 50 to Delta, which is the largest 
agricultural area in Utah, one would see how the Mormons did 
indeed make the desert blossom as a rose by taking poor, 
alkaline soil and irrigating with the waters of the Sevier 
River.
    In Delta, the historic dance hall provides a glimpse of a 
different time, when on Saturday night people went to escape 
the stresses of the Great Depression and World War Two. Just 
outside of Delta is the Topaz Relocation Camp, where Japanese 
Americans from the San Francisco area were interred during the 
war. Topaz was the fourth largest city in Utah while it 
existed. Manzanar in California has been designated a national 
monument, but Topaz has not had the kind of recognition that 
Manzanar has, but it is equally significant and played a major 
role in the history of the Great Basin during World War Two.
    The drive from Delta, Utah, to Ely, Nevada, is an 
experience that is hard to describe. First one would see the 
Sevier Lake that dried up in the 1920's when agriculture used 
up all the water in the river. Now one sees a mirage with the 
reflections of the surrounding mountains and billowing summer 
clouds. An occasional cow or sheep might be seen on the open 
range. There are geological formations and fossil beds from the 
ancient time when this area was covered by Lake Bonneville.
    Driving this stretch of road gives the traveler a true 
sense of the stamina required to survive in this isolated, arid 
land. After traveling through King's Canyon, one comes over a 
rise and sees the magnificent Snake Range with 13,000-foot 
Mount Wheeler towering over the valley floor.
    Congress recognized the significance of this area in 1985 
when Lehman Caves National Monument and the South Snake Range 
became Great Basin National Park. I would like to point out 
that Becky Mills, Superintendent of Great Basin Park, has been 
one of our supporters from the very beginning and the regional 
office in San Francisco has supported us. I believe they have 
written testimony entered into the record here.
    Snake Valley is where I live. I own the only service 
station/motel and cafe on a 158-mile stretch of road. The 
valley is 40 miles wide and over 100 miles long, with a 
population of less than 500 people, probably the same amount of 
people that the land could carry when the Fremont were there. 
There are significant Fremont archaeological sites covering the 
entire valley.
    In the 1870's, Mormon pioneers and other ranchers settled 
what are Baker, Nevada, and Garrison, Utah. There are abandoned 
cabins and corrals still standing anywhere there was a little 
bit of water.
    In 1897, the Woodward family tried to settle south of 
Garrison. Six years later they packed up and left the valley, 
and Neal Woodward later wrote that ``This land would not 
produce anything but lizards, horn toads, and 
disappointments.''
    The ranches that did survive sold produce, meat and dairy 
products to the miners who traveled the area looking for 
another mother lode. Of course, they never found it. Our hills 
are dotted with abandoned tungsten, silver, and gold mines.
    In 1885, a wooden flume was built with the help of Chinese 
labor that transported water from the east side to the west 
side of Mount Wheeler to placer gold mining operations at 
Oceola. Today the Oceola Ditch is on the National Register of 
Historic Places.
    Traveling on through Spring Valley, Nevada, one could stop 
at a Pony Express station or travel the dirt road that was the 
Lincoln Highway. Today the valley's meadows are productive 
cattle ranches. In a past time there were hundreds of thousands 
of sheep in this area, herded by Basques, who eventually became 
ranch owners and achieved the dream for which they left the 
Pyrenees.
    Over the next mountain pass, one would drop into Steptoe 
Valley. Just outside of Ely, Nevada, is the Three C Ranch that 
was just recently sold to the Nevada Division of Wildlife. They 
will improve the wildlife habitat for the elk and deer herds in 
this area and also provide fishing and recreational use on both 
Cummings and Cave Lakes. The Division of Wildlife is relying on 
a partnership with the heritage area to interpret the history 
of this working ranch.
    More mineral wealth came out of Ely, Nevada, in the form of 
copper than from the Comstock Lode of Virginia City. In nearby 
Ruth, the traveler can see the Ruth Pit created by Kennecott 
Copper. The copper ore was smelted in McGill, Nevada. McGill is 
one of the very last examples of a company town that still 
exists as a viable community. The societal divisions that 
existed during McGill's heyday are still clearly evident. The 
managers' housing on Circle Drive sits apart from Greektown, 
Chinatown, and Little Italy. Dean Malperdas of Greek descent 
recalls with bitterness how even into the 1950s Greeks were not 
allowed to cross Main Street.
    The Nevada Northern Railway carried the copper ore from 
Ruth to McGill. When Kennecott Copper shut down its operations 
in the 1970's, it walked away, leaving all the rolling stock 
and buildings just as if it were to start up the next day. 
Today the Nevada Northern Railway yard contains a Nevada State 
museum as well as steam and diesel engines that run historical 
tours during the summer. The depot, roundhouse, freight barns, 
and machine shop comprise an incredible asset that needs to be 
preserved and protected.
    The Western Shoshone of Ely and Duckwater are modern day 
townspeople and ranchers, as well as basketmakers, dancers, and 
artists. They hold an annual fandango and they danced at the 
opening ceremony of this year's Olympics in Salt Lake City. The 
Shoshone are particularly interested in participating with the 
heritage area and projects to preserve their language that is 
close to being lost and in producing a history of their people 
written by the Shoshone themselves.
    On a personal note, my great-great-grandparents boarded a 
ship in England and sailed to St. Louis, Missouri, and from 
there they walked to Salt Lake City, pushing a handcart with a 
few of their belongings. Both of my grandfathers and my father 
were underground miners. They worked hard to provide for their 
families. They were not heroes and they were not particularly 
noteworthy people, but they were the ones that came and, more 
importantly, they were the ones that stayed. It is people like 
them that I want this Nation to hear their stories.
    I am proud of who I am and I want not only my grandchildren 
to be aware of this heritage, but also for the entire Nation to 
know of it and understand it and incorporate it with pride as 
part of their heritage. That is why I am here today asking your 
support in creating the Great Basin National Heritage Area, 
which would be one of three west of the Rocky Mountains.
    [The prepared statement of Ms. Koyle follows:]
Prepared Statement of Denys Koyle, Secretary, Great Basin Heritage Area 
                         Partnership, Baker, NV
    Mr. Chairman, it is my pleasure to address this subcommittee on 
behalf of the Great Basin Heritage Area which encompasses Millard 
County, Utah, White Pine County, Nevada and the Duckwater Shoshone 
Reservation.
    In June of 1999, with the support of the National Park Service and 
the Nevada Commission on Tourism and after a series of public meetings 
over a two year period in Delta, Utah and Ely and Baker, Nevada, the 
Great Basin Heritage Area Parnership, a truly grass-roots effort, was 
created. It is our belief that this Heritage Area will contribute to 
the quality of life and provide a much needed economic stimulus to the 
area.
    The Partnership consists of representatives from local business, 
tourism and historical/cultural interests. The federal partners are the 
Great Basin National Park, the Bureau of Land Management and the 
National Forest Service in both counties. The state partners include 
the State Parks Systems, the Nevada Commission on Tourism, the Utah 
Travel Council, the economic development agencies of both states, as 
well as the state museum systems and the state historic preservation 
offices. The management board of the Heritage Area is appointed by the 
respective County Commissions and Tribal Governments as described in 
the proposed legislation.
    In a relatively short period, our board has consolidated local, 
state and federal support for the Heritage Area concept. With funding 
from the Nevada Commission on Tourism and the Utah Division of History, 
we have conducted a heritage inventory, identified major themes and 
resources and we are in the first stages of developing a management 
plan.
    The unique geography of the Great Basin contains long natural 
vistas, isolated high desert valleys and mountain ranges towering over 
ranches, mining districts, historic railroads, archaeological sites and 
tribal communities. These counties were settled, not only by Mormon 
pioneers from the British Isles and Scandinavia, but also, by Serbs, 
Croats, Greeks, Chinese, Basques, Italians and Hispanics. The native 
populations were Goshute, Paiute and Shoshone. The pre-history 
population was Fremont.
    Driving through the Heritage Area on Highway 50, one would be able 
to visit the State House of the Territory of Deseret in Fillmore, Utah. 
Millard County is the largest agricultural area in Utah and illustrates 
how the Mormons made the ``desert blossom as a rose'' by taking poor 
alkaline soil and irrigating with the waters of the Sevier River.
    In Delta, the historic Van's Dance Hall provides a glimpse of a 
different time where on Saturday night people went to escape the 
stresses of the Great Depression and World War II. Just outside of 
Delta is the Topaz Relocation Camp where Japanese-Americans were 
interred during the war. Topaz was the fourth largest city in Utah 
while it existed. Manzanar in the Owens Valley of California has been 
designated a national monument. Topaz has not had the recognition paid 
to Manzanar but it is equally significant and played a major role in 
the history of the Great Basin during World War II.
    The drive from Delta, Utah to Ely, Nevada is an experience that is 
hard to describe. One would see Sevier Lake that dried up in the 1920's 
when agriculture used up all the water in the river. Now one see a dry 
lake bed with mirages that reflect the surrounding mountains and the 
billowing cumulus clouds of summer. An occasional cow or sheep might be 
seen on this open rangeland. This is where today the ``deer and the 
antelope roam''. There are incredible geological formations and fossil 
beds from the ancient time when this area was covered by Lake 
Bonneville. Driving this stretch of road gives the traveler a sense of 
the stamina required to survive in this isolated land.
    After traveling through King's Canyon, one comes over a rise and 
sees the magnificent Snake Range with 13,063 foot Mt. Wheeler towering 
over the valley floor. Congress recognized the significance of the area 
in 1985 when Lehman Caves National Monument and the South Snake Range 
became Great Basin National Park. With its snowfields, pinion-juniper 
foliage, ancient Bristlecone pine forests and magnificent views of the 
valley floors, the Park epitomizes basin and range topography of the 
entire Great Basin.
    Snake Valley is where I live. I own the only service station, motel 
and cafe on a 158 mile stretch of road named by Life Magazine as ``the 
loneliest road in America''. The valley is forty miles wide and over 
100 miles long with a population of less than five hundred people, 
probably the same population that the land could support when the 
Fremont Indians inhabited the area. There are significant Fremont 
archeological sites covering the entire valley. Western Shoshone, 
Southern Paiute and Goshute followed the Fremont. In the 1870's, Mormon 
pioneers and other ranchers settled what are Baker, Nevada and 
Garrison, Utah. There are abandoned cabins and corrals still standing 
anywhere there is a little water. In 1897, the Woodward family tried to 
settle south of Garrison. Six years later they left valley and Neal 
Woodward wrote that, ``this land would not produce anything but 
lizards, horned toads and disappointment.''
    The ranches that survived did so by selling fresh produce, meat and 
dairy products to the miners who traversed the area looking for another 
Mother Lode like Virginia City that, of course, they never found. Our 
hills are dotted with abandoned tungsten, silver and gold mines. In 
1885, a wooden flume was built with the help of Chinese labor that 
transported water from the east side to the west side of Mt. Wheeler to 
placer gold mining operations at Osceola. Today, the Osceola Ditch is 
on the National Register of Historic Places.
    Traveling on through Spring Valley, Nevada one could stop at a Pony 
Express station and travel the dirt road that was the Lincoln Highway. 
Today, the valley's native meadows are productive cattle ranches. In a 
past time, there were hundreds of thousands of sheep in this area, 
herded by Basques who eventually became ranch owners and achieved the 
dream for which they left the Pyrenees.
    Over the next mountain pass, one would drop into Steptoe Valley. 
Just outside of Ely is the Three C Ranch that was owned by El Tejon 
Cattle Company of Bakersfield, California. Just recently, El Tejon sold 
the ranch to the Nevada Division of Wildlife. They will improve the 
wildlife habitat for the elk and deer herds in the area and, also, 
provide fishing and recreational use on both Cummings and Cave Lakes. 
The Division of Wildlife is relying on a partnership with the Heritage 
Area to interpret the history of this working ranch.
    More mineral wealth came out of Ely in the form of copper than from 
the Comstock Lode of Virginia City. In nearby Ruth, the traveler can 
see the Ruth Pit, a smaller version of Utah's Bingham Pit, both created 
by Kennecott Copper. The copper ore was smelted in McGill, Nevada. 
McGill is one of the very last examples of a company town that still 
exists as a viable community. The societal divisions that existed 
during McGill's heyday are still clearly evident. The managers' housing 
on Circle Drive sits apart from Greek Town, China Town and Little 
Italy. Dean Malaperdas of Greek descent recalls with bitterness how 
even into the 1950's Greeks were not allowed to cross Main Street and 
in his words ``were note even considered to be White Men.''
    The Nevada Northern Railway carried the copper ore from Ruth to 
McGill and delivered the children from McGill to Ely for school 
throughout most of the 20th century. When Kennecott Copper shut down 
its operations in the 1970's, it walked away leaving all the rolling 
stock and buildings just as if they would start up the next day. Today, 
the Nevada Northern Railway Yard contains a Nevada State Museum as well 
steam and diesel engines that run historical tours during the summer. 
The depot, roundhouse, freight barns and machine shop comprise an 
incredible asset that needs to be preserved and protected.
    The Western Shoshone of Ely and Duckwater are modern day 
townspeople and ranchers as well as basket makers, dancers and artists. 
They hold an annual fandango and they danced at the opening ceremony of 
this year's Winter Olympics in Salt Lake City. The Duckwater Shoshone 
are particularly interested in participating with the Heritage Area in 
projects to preserve the Shoshone language which is close to being lost 
and in producing a history of their people written by the Shoshone 
themselves.
    My great-grandparents boarded a ship in England to St. Louis, 
Missouri and from there walked to Salt Lake City across the plains and 
Rocky Mountains pushing a hand-cart with their few belongings. Both of 
my grandfathers and my father were underground miners. They worked hard 
to provide for their families. They were not heroes and they were not 
particularly noteworthy people. BUT they were the ones who came and 
they were the ones who stayed. It is their story that drives me. Their 
heritage is part of who I am and I am proud of it. I want, not only my 
children and grandchildren to be proud of this heritage, but also, for 
the entire nation to know of this heritage and understand it and 
incorporate it with pride as part of their heritage. That's why I am 
here today asking your support in creating the Great Basin National 
Heritage Area.
    Thank you.

    Senator Akaka. Thank you very much for your testimony.
    I would like to now call on Mr. Shoup for your testimony.

STATEMENT OF RONALD E. SHOUP, EXECUTIVE DIRECTOR, OIL CITY AREA 
               CHAMBER OF COMMERCE, OIL CITY, PA

    Mr. Shoup. Thank you. Chairman Akaka, ranking member 
Thomas, members of the Subcommittee on National Parks, 
committee staff, media and guests: My name is Ronald Shoup. I 
reside in Oil City, Pennsylvania, and have been a lifelong 
resident of Pennsylvania's historic oil region.
    It is with great enthusiasm that I appear before you today 
and with this testimony ardently encourage the establishment of 
the Oil Region National Heritage Area in northwestern 
Pennsylvania, as you will see highlighted on the accompanying 
easel displays being put up now and as shown on the geographic 
maps included in your packets.
    Life indeed took on new meaning in Venango County, the 
Titusville area, and around the world in 1859 when Colonel 
Edwin L. Drake drilled the first----
    Senator Akaka. Mr. Shoup, may I ask you to move the mike a 
little further?
    Mr. Shoup. Certainly.
    Senator Akaka. Your voice is so powerful.
    Mr. Shoup. Thank you.
    Senator Akaka. Thank you very much.
    Mr. Shoup. We encourage the establishment of the Oil Region 
National Heritage Area in northwestern Pennsylvania and as 
highlighted on the accompanying displays. Life took on a new 
meaning in Venango County, the Titusville area, and around the 
world in 1859 when Colonel Edwin L. Drake drilled the first 
commercially successful oil well in the United States. With 
Drake's success, the American oil industry was born and a 
dynamic global enterprise was launched.
    The birth and turbulent growth of the oil industry in 
northeastern Pennsylvania forever changed the world and, with 
the historic events that occurred during the rush for black 
gold, we are indeed left with a rich legacy and a heritage 
fully deserving of broad recognition as a vital and lasting 
part of our Nation's fabric. What a wonderful life experience 
it has been the grow up and live in an area that so many 
routinely refer to as ``the valley that changed the world.''
    Oil field stories are abundant and derricks that once 
dotted our landscape are being rebuilt in recognition of our 
fascinating heritage. We celebrate our history annually during 
our oil heritage festivals, and museums, historic photographs, 
artifacts, archival material already document the story of the 
oil industry, an industry that continues to touch the lives of 
everyone all over the world.
    While serving as executive director of the oilfield region 
tourism agency, I had the opportunity to tour the region with 
many visitors who were absolutely in awe of the story of our 
oil heritage, the natural and scenic beauty of the area, our 
museums and the many Victorian homes that were built by the oil 
wealth.
    On one occasion I personally escorted an elderly Chinese 
college professor of geology to Drake Well Museum and in doing 
so helped him to realize a lifelong dream. He loved his visit 
and remarked: ``Every college freshman that studies geology in 
China knows about Drake's well in Titusville, Pennsylvania, and 
is made aware of the tremendous significance of Colonel Drake's 
accomplishment and lasting impact upon the world.'' He further 
commented as we passed some refineries en route: ``I fear that 
too few people fully understand the significance of oil, its 
byproducts, and its production to the world's economy and 
development.''
    The dynamics of the early years of the rapid growth of the 
oil industry changed the world. Legal systems were revised to 
handle systems of leasing, new methods of distribution were 
created, brand marketing strategies evolved, petroleum 
byproducts were developed, environmental challenges were met. 
The lessons learned had lasting worldwide and local 
ramifications. The impact of oil has shaped our Nation's 
cultural history.
    So why is becoming a national heritage area extremely 
important to our region and how will the designation help? 
Having been an assistant school superintendent for curriculum 
and instruction, I can fully attest that the oil region of 
Pennsylvania has a rich heritage to be preserved, a powerful 
and compelling story to share with youth and adults alike, and 
abundant, meaningful lessons to be passed on to future 
generations.
    With Federal designation, we will receive far greater 
national attention regarding the tremendous significance of our 
region, realize abundantly greater opportunities to preserve 
and promote our region, realize increased economic development 
opportunities, and benefit from enhanced opportunities to share 
our story and the importance of the oil industry to our 
Nation's growth and ongoing development. Federal designation 
would provide avenues for securing invaluable technical 
support, and management and planning assistance through the 
National Park Service would enable us to move much more rapidly 
forward with existing plans, thus turning vision into reality.
    The vision began in 1988, when planning for this heritage 
region began. On one of the two easel displays you will see the 
cover panels of several of our consensus-based plans, including 
an approved feasibility study that dates back to 1991, a 
management action plan from 1994, an oil region interpretive 
perspective plan from 1998, an executive summary from the 1998 
interpretive plan.
    We recently completed an ambitious 5-year strategic 
marketing plan for our oil heritage region and a new 
development regional fun map.
    Are we able, willing, and ready to be designated a national 
heritage area? The answer is an emphatic yes.
    In 1994 the Commonwealth of Pennsylvania designated the 
area encompassing all of Venango County plus the city of 
Titusville in Oil Creek Township and eastern Crawford County as 
a Pennsylvania heritage park. The Oil Region Incorporated is a 
501(c)(3) corporation and has the following mission statement: 
``The oil heritage region unites and revitalizes our area by 
emphasizing our unique legacy as the birthplace of the oil 
industry. We do this through developing, protecting, and 
preserving and promoting the region's cultural, recreational, 
historic, and natural resources.'' This mission we would hope 
would surely align with the purposes and programs of a national 
heritage area.
    As a result of the substance and quantity of 
accomplishments and projects successfully completed since 
having been designated a State heritage park, we are fully 
confident in our abilities and readiness to handle Federal 
designation. In September 2000, as was mentioned before, a 
field report on the oil heritage region in Pennsylvania as a 
national heritage area was prepared for the National Park 
Service by John Milner Associates, Inc. The conclusion as it 
appears in this report reads: ``The Oil Region, Incorporated, 
has made significant progress in bringing recognition to the 
region and, from its beginning in northwest Pennsylvania, the 
oil industry grew nationally and internationally.''
    With national heritage designation would come the potential 
to reach much broader audiences with our compelling story. The 
ability to garner the much-needed financial support to preserve 
this assemblage of natural, historic, and cultural resources 
would be enhanced. Should we receive the national area 
designation we seek, we are very confident that we can match 
those Federal funds with continuous private, public, and State 
support.
    Currently, as executive director of the Oil City Chamber of 
Commerce, I am most impressed by the extent of cooperation and 
support shown by the many entities that work together 
cooperatively to recognize, preserve and promote our unique 
heritage, natural resources, and great attractions. These 
efforts are in the interest of telling our story, increasing 
tourism, managing natural resources, and spurring economic 
development.
    We are also fully willing to become a national heritage 
area. This conviction is a conviction of the board of directors 
as well as from counties, municipalities, interpretive parties, 
community organizations, businesses, and individual residents 
of both Crawford and Venango County. As you can see in your 
packet, we have quite a collection, representing a broad base 
of support, letters of support that support our contention that 
we have a broad basis of support for national designation.
    Also in the packets we have especially prepared for you 
there is a wealth of information that pertains to 
Pennsylvania's oil heritage region and should amply attest to 
our many successes to date and support our claim that national 
designation is appropriate.
    I thank you for this opportunity to be here before you 
today to testify on our behalf and I am pleased to have had 
accompany me here today to this hearing Barbara T. Zolly, 
president of the Oil Heritage Region, Inc., and administrator, 
Drake Well Museum, Pit Hole Visitor Center, Well No. 1, the 
oldest continuously producing well in the world, as well as 
Marilyn A. Black, manager of Oil Heritage Region, Inc.
    Thank you kindly for this opportunity to testify.
    [The prepared statement of Mr. Shoup follows:]
  Prepared Statement of Ronald E. Shoup, Executive Director, Oil City 
                 Area Chamber of Commerce, Oil City, PA
    Chairman Akaka, Members of the Subcommittee on National Parks of 
the Committee on Energy and Natural Resources, Committee Staff, Media 
and Guests
    My name is Ronald E. Shoup. I reside at 11 Ellen Drive in Oil City, 
Pennsylvania, and I have been a lifelong resident of Pennsylvania's 
historic Oil Region. It is with great enthusiasm that I appear before 
you today and, with this testimony, ardently encourage the 
establishment of the Oil Region National Heritage Area in northwestern 
Pennsylvania, as you will see highlighted on our easel display and as 
shown on the geographical map included in your packets.
    Life indeed took on new meaning in Venango County, the Titusville 
area and around the world when, in 1859, Colonel Edwin L. Drake drilled 
the first commercially successful oil well in the United States. With 
Drake's success, the American oil industry was born and a dynamic 
global enterprise was launched. The birth and turbulent growth of the 
oil industry in Northwestern Pennsylvania forever changed the world 
and, with the historic events that occurred during the rush for ``black 
gold,'' we are indeed left with a rich legacy and a heritage fully 
deserving of broad recognition as a vital and lasting part of our 
nation's fabric.
    What a wonderful life experience it has been to grow up and live in 
the area that so many routinely refer to as ``the valley that changed 
the world.'' Oil field stories are abundant; derricks that once dotted 
our landscape are being rebuilt in recognition of our fascinating 
heritage; our wonderful heritage is celebrated annually during our oil 
heritage festivals; and, museums, historic photographs, artifacts, and 
archival material richly document the story of the oil industry . . . 
an industry that continues to touch or affect the lives of everyone all 
over the world.
    While serving as Executive Director of the Oil Heritage Region 
Tourist Promotion Agency, I frequently toured our region with visitors 
who were absolutely in awe of the story of our oil heritage, the 
natural and scenic beauty of the area, our museums and the many 
beautiful Victorian homes built by oil era wealth. On one occasion, I 
personally escorted an elderly Chinese college professor of geology to 
the Drake Well Museum, and in doing so, helped him to realize a 
lifelong dream. He loved his visit and remarked, ``Every college 
freshman that studies geology in China knows about Drake's Well in 
Titusville, Pennsylvania and is made aware of the tremendous 
significance of Colonel Drake's accomplishment and its lasting impact 
upon the world.'' He further commented, ``I fear that too few people 
fully understand the significance of oil, its byproducts and its 
production to the world's economy and development.''
    Indeed, the dynamics of the early years of the rapid growth of the 
oil industry did change the world . . . legal systems needed revision 
to handle a system of leasing; new methods of distribution were 
explored; new marketing strategies evolved; byproducts were developed; 
environmental challenges were abundant; new problems and the lessons 
learned had both local and world-wide ramifications; and, the cultural 
impacts are certainly documented in our nation's history.
    So, why is designation as a National Heritage Area extremely 
important to our region and how will such designation help? Having been 
an Assistant School Superintendent for Curriculum and Instruction, I 
can fully attest that the Oil Region of Pennsylvania has a rich 
heritage to be preserved, a powerful and compelling story to share with 
youth and adults alike, and abundant meaningful lessons to be passed on 
to future generations. With federal designation, we will most assuredly 
receive far greater national attention regarding the tremendous 
significance of our region; realize abundantly greater opportunities to 
preserve and promote our heritage; realize increased economic 
development opportunities; and, benefit from enhanced opportunities to 
share our story and the importance of the oil industry to our nation's 
growth and ongoing development.
    Federal designation will provide avenues for securing invaluable 
technical support and management plan assistance through the National 
Park Service and will enable us to move forward much more rapidly with 
existing plans, turning vision into reality. The vision, in fact, began 
in 1988 when planning for this heritage region began. On one of the two 
easel displays, you will see the covers of several of our concensus-
based plans, including an approved feasibility study dating back to 
1991, a Management Action Plan from 1994, the Oil Region Interpretive 
Prospectus/Plan form 1998, and an Executive Summary of the 1998 
Interpretive Plan. Also recently completed is a five-year Strategic 
Marketing Plan for Oil Heritage Region, Inc. and a newly developed 
regional Fun Map.
    Are we able, ready and willing for designation as a National 
Heritage Area? The answer is an emphatic YES. In 1994, the Commonwealth 
of Pennsylvania designated the area encompassing all of Venango County 
plus the City of Titusville and Oil Creek Township in eastern Crawford 
County as a Pennsylvania Heritage Park. Thus Oil Heritage Region, Inc., 
a 501 (c)(3) corporation, was formed with a mission statement as 
follows: The Oil Heritage Region unites and revitalizes the area by 
emphasizing our unique legacy as the birthplace of the oil industry. We 
do this through developing, preserving and promoting the region's 
cultural, recreational, historic and natural resources.'' This mission 
statement is surely in alignment with the purposes and programs of a 
National Heritage Area.
    As a result of the substance and quantity of accomplishments and 
projects successfully completed since being designated a Pennsylvania 
Heritage Park, Oil Heritage Region, Inc. is fully confident of its 
ability and readiness to handle federal designation. In September, 
2000, a Field Report on the Oil Region Heritage Park, Pennsylvania, as 
a National Heritage Area was prepared for the National Park Service by 
John Milner Associates, Inc. The conclusion as it appears in this 
report reads, ``The Oil Heritage Region, Inc. has made significant 
progress in bringing recognition to the region. From its beginnings in 
northwestern Pennsylvania, the oil industry grew nationally and 
internationally. With National Heritage Area designation would come the 
potential to reach much broader audiences for the nationally important 
story. The ability to garner the much-needed financial support to 
preserve this significant assemblage of natural, historic, and cultural 
resources would be enhanced.'' Should we receive the National Heritage 
Area designation we seek, we are very confident, as per our track 
record to date, with our ability to accommodate additional federal 
dollars and to match those funds with continuous private, public and 
state support.
    As Executive Director of the Oil City Area Chamber of Commerce, I 
am most impressed by the extent of cooperation and support shown by the 
many entities that work cooperatively together to recognize, preserve 
and promote our unique heritage, natural resources and area attractions 
in the interest of telling our story, increasing tourism, managing 
natural resources and spurring economic development.
    Is the Oil Heritage Region fully willing to become a National 
Heritage Area and what is the extent of support for such designation? 
Most definitely, WE ARE. This conviction of response comes from the 
Board of Directors of Oil Heritage Region, Inc. as well as from 
counties, municipalities, interpretive partners, community 
organizations, businesses, and individual residents of Crawford and 
Venango Counties. Please note that these parties fully recognize and 
value the significance of our heritage and the powerful message that we 
have to share.
    In your packets, you will find copies of numerous letters of 
endorsement that support and encourage pursuing designation as the Oil 
Region National Heritage Area. Those letters attest to broad-based 
agreement that the currently configured Pennsylvania Heritage Area 
boundaries should also be adopted for the nationally designated area. 
Your packet also contains, by the way, an array of photos illustrating 
existing key sites and materials as well as numerous other items that 
will serve to further illustrate the importance of oil history and the 
assets of this region.
    Of course, we are especially appreciative of the enthusiastic 
support shown by United States Senators Rick Santorum, sponsor, and 
Arlen Specter, co-sponsor, of S. 1441, the companion bill to H.R. 695 
sponsored by United States Congressman John Peterson. H.R. 695 was 
passed by the House of Representatives on September 10, 2001.
    In summary, the Oil Heritage Region (comprised of Venango County 
and portions of Eastern Crawford County in northwestern Pennsylvania) 
is very willing, able and ready for designation as the Oil Region 
National Heritage Area. We look forward to tackling any issues and 
special challenges that may accompany such prestigious designation.
    The packets we have specially prepared for you include a wealth of 
information pertaining to Pennsylvania's Oil Heritage Region. In the 
right-hand pocket, you will find a detailed color map of Oil Heritage 
Region (OIRE/20,000 dated October, 2000 and cited in S. 1441 and H. R. 
695); a map of Oil Heritage Region within northwestern Pennsylvania; 
sheets of captioned color photos of completed projects; testimony of 
Ronald E. Shoup, along with resume of testifier; the Field Report on 
the Oil Region Heritage Park, Pennsylvania, as a National Heritage 
Area; prepared for the National Park Service by John Milner Associates, 
Inc.; September 22, 2000; excerpts from Pennsylvania Heritage Tourism 
Study; May, 1999; a Fun Map of Oil Heritage Region, showcasing area 
attractions; an Overview of the Oil Heritage Region; April, 2000; 
Letters of Endorsement and Encouragement for Oil Region National 
Heritage Area Designation, including cover list; and, S. 1441; Oil 
Region National Heritage Area Act (Introduced in the Senate). In the 
left-hand pocket, Oil Heritage Region--Interpretive Venues; an 
Executive Summary of Oil Heritage Region Interpretive Prospectus; a 
copy of the Oil Heritage Region Driving Tour; a guide to Recreational 
Trails in the Allegheny River Region; a Northwest Pennsylvania Outdoors 
Discovery Map; the publication Through the Valley that Changed the 
World!; and, a publication featuring Ida M. Tarbell; November 5, 1857-
January 6, 1944.
    The letters of endorsement and encouragement enclosed in your 
packets are from the following entities: City of Franklin; City of 
Titusville; Clarion/Venango Educational Resources Alliance; County of 
Crawford; County Commissioners; County of Venango; County 
Commissioners; Cultural and Educational Committee for the Oil Heritage 
Region, Inc.; The Derrick Newspaper Publishing Company; Joint 
Legislative Committee on Air and Water Pollution Control and 
Conservation Committee of the Pennsylvania Legislature; Independent 
Petroleum Producers; Northwest Pennsylvania Regional Planning & 
Development Commission; Oil Creek Railway Historical Society, Inc.; 
Pennsylvania Department of Conservation and Natural Resources; 
Pennsylvania Historical and Museum Commission; Senator Robert D. 
Robbins, Pennsylvania Senator for the 50th District; Robinson's 
Wallpaper & Interiors; Titusville Area Chamber of Commerce; Titusville 
Historical Society; Venango County Historical Society; Pennsylvania 
Department of Conservation and Natural Resources; Oil Creek State Park; 
Venango County Planning Commission; Venango Economic Development 
Corporation; a Collector of Automobile Memorabilia; and, Senator Mary 
Jo White, Pennsylvania Senator for the 21st District.
    I will be most pleased to answer any questions or hear any comments 
you may wish to share. Two very special guests have accompanied me to 
today's hearing . . . they are Barbara T. Zolli, President of Oil 
Heritage Region, Inc. and Administrator of Drake Well Museum, Pithole 
Visitors Center; and, McClintock Well #1 along with Marilyn A. Black, 
Manager Oil Heritage Region, Inc. Of course, they are here in a 
supportive role as well as to distribute materials or to assist in 
addressing any questions you may have. Following the hearing, please 
kindly direct such inquiries to Oil Heritage Region, Inc., 206 Seneca 
Street, Fourth Floor, P.O. Box 128, Oil City, PA 16301; (814) 677-3152, 
Extension 17; toll-free (800) 483-6264, Extension 17; Fax (814) 677-
5206; or, e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d9dfdaded3c4dfc2d7d1d3f6c3c5d7d5ded9dfd5d398d8d3c298">[email&#160;protected]</a>

    Senator Akaka. Since 1859.
    Mr. Shoup. Since 1859.
    Senator Akaka. Thank you very much for your testimony.
    Mr. Jordan, your testimony, please.

STATEMENT OF KELLY JORDAN, CHAIR, ARABIA MOUNTAIN HERITAGE AREA 
                     ALLIANCE, LITHONIA, GA

    Mr. Jordan. Thank you, Mr. Chairman. Senator Thomas, other 
members, the staff and others present: My name is Kelly Jordan. 
I am chair of the Arabia Mountain Heritage Area Alliance, which 
is also a 501(c)(3), a privately created organization. I speak 
today on behalf of the many members of that alliance. I have 
chaired that for approximately the last 4 years.
    I am going to divert from my prepared remarks a little bit 
today to be sure that I address a couple questions that I heard 
addressed to Senator Cleland during his remarks. We believe 
that a great partnership can be created by the Federal and 
State and local jurisdictions through this national heritage 
area mechanism. The resulting national recognition, combined 
with a relatively small amount of Federal support, we believe 
can and will in our case catalyze great efforts and benefits at 
the local level.
    Senator Cleland and our alliance partners share a deep love 
and affection for this particular part of the world. I like 
very much what Ms. Koyle did about painting a visual picture of 
her area. Ours is one that is characterized by very special 
rock outcrops and mountains and rivers and fields. I want to 
summarize for you quickly some of the highlights of the Arabia 
Mountain Heritage Area.
    As Senator Cleland mentioned, the Panola Mountain which 
exists in our heritage area is already a designated national 
natural landmark and is considered by many people to be the 
finest preserved rock outcrop ecosystem on the eastern seaboard 
of the United States. Arabia Mountain, which is a similar rock 
mountain, itself is home to Federally listed endangered, 
threatened, and rare plant species. I want to say that again: 
Federally listed endangered plant species already. We have the 
largest colony of a particular plant in the world that exists 
on top of the mountain.
    We have visible and documented Native American settlement 
areas that date back 4,000 years, things called soapstone 
quarries where Native Americans made stone bowls out of a soft 
rock, up through pottery from what is called the Swift Creek 
Culture, on up into the Creeks and the Cherokees that were 
still there when the settlers arrived.
    One of our favorite people in the State of Georgia, William 
Tecumseh Sherman, came to Arabia Mountain his first day out of 
Atlanta on his way back home. The granite quarries that existed 
and still exist at Arabia and Lithonia, they provided 
employment to generations upon generations of immigrants to the 
United States, and they provided the stone that is found in a 
number of our historic buildings throughout the United States, 
such as the Academy at Annapolis.
    We have historic industrial and residential buildings in 
the Arabia National Heritage Area that are built out of this 
native stone. One of these buildings is already on our National 
Register of Historic Places.
    As Senator Cleland also mentioned, with the help of our 
great Governor Roy Barnes in Georgia we have already purchased 
the last remaining dairy farm in this area. It is the closest 
farm in to the Atlanta metropolitan region. It is the last 
dairy farm in an area that once was the dairy-farming capital 
of our State.
    In sum, our heritage area can display the entire history of 
this part of the world, from the Native Americans to the early 
settlers and farmers through the Civil War to the great quarry 
industries, and at the same time preserve a unique ecological 
heritage--is that buzzer for me? Okay. I thought it went fast.
    It is a historical miracle, really, that such an 
opportunity still exists in the year 2002 in an area growing 
like the Atlanta region, only 20 minutes from downtown. If we 
had more time I would love to tell you how it happened. But 
think of the educational opportunities that are afforded by an 
area with all the types of resources I mentioned that is within 
a 1-hour field trip of half the school population of our entire 
State. That is what we are really excited about, is the future 
educational opportunities of a national heritage area, because 
we need to preserve and tell these stories and this legislation 
will help us.
    Obviously, we are enthusiastic. I am enthusiastic. But to 
put that enthusiasm to the test, we did decide to conduct a 
thorough study of what an Arabia Mountain National Heritage 
Area could provide to the public. This is that study, the 
Arabia Mountain National Heritage Area Feasibility Study. We 
retained the firm Icon Architecture, which has done a number of 
the master plans for heritage areas throughout the country: the 
recently approved Automotive National Heritage Area, the Ohio 
and Erie Canal, the South Carolina Heritage Corridor, and such.
    They did a 9-month long study process, and in our package 
you will find a letter from them and you will see that they are 
very enthusiastic about this particular heritage area.
    It was our pleasure to have the close and invaluable 
involvement of the Southeastern Regional Office of the National 
Park Service in conducting this study and in our alliance. The 
study findings, which I have attached in our package, you will 
see that we believe we have addressed all ten of the proposed 
criteria for future national heritage areas.
    Finally, if you will let me say a few words about 
partnership. The Arabia Mountain National Heritage Area has the 
enthusiastic support of relevant State and local partners. We 
have purchased over $23 million in land already. Landowners 
have gifted over $13 million in property outright to this 
project. Local philanthropic organizations have contributed 
over $2 million, professional firms have contributed an untold 
amount.
    We have also had the close support and involvement from 
numerous national nonprofit organizations, such as the 
Conservation Fund, the Trust for Public Land, and the Nature 
Conservancy.
    Also I want to mention that we are also proud to say that 
this is a multiracial project. Our project area reaches from 
the second richest African American area in the United States 
after Washington here into very conservative Rockdale County. I 
am proud to say that we are a bipartisan effort, because, as 
you will see, our legislation on the House side is cosponsored 
by Republic John Linder.
    The alliance has finally been honored by the support and 
involvement of the families and the people that live in this 
area to a great extent, who have given their land, given some 
of their buildings, all the way up to the 91-year-old farmer 
who hung on for 3 years for us, and the Davidson family who 
gifted Arabia Mountain itself to the public 30 years ago.
    Now, the proposed Arabia Mountain Heritage Area encompasses 
five political jurisdictions: DeKalb County, Rockdale County, 
Henry County, the city of Lithonia, and the State of Georgia. 
The national heritage area designation and the funds that come 
with it we would hope would allow us to implement a unified 
management structure that will coordinate between political 
jurisdictions, so that from the public's point of view when 
they come to enjoy all these resources and see it, it will be a 
seamless experience.
    We humbly ask you for your support for our legislation. I 
thank you for your time. I would be happy to answer any 
questions that you may have. Thank you.
    [The prepared statement of Mr. Jordan follows:]
  Prepared Statement of Kelly Jordan, Chair, Arabia Mountain Heritage 
                      Area Alliance, Lithonia, GA
    Mr. Chairman and Members of the Committee, on behalf of the many 
partners in the Arabia Mountain Heritage Area Alliance, I want to say 
how exciting it is for us to be here today. In particular, we want to 
thank our own Senator Max Cleland for introducing us to the concept of 
National Heritage Areas and for sponsoring this legislation.
    It has been an honor for me to serve as Chair of the Arabia 
Mountain Heritage Area Alliance for the past four years (and let me 
interject that, amazingly, no one knows where Arabia Mountain gets its 
name, but we are confident it has no relation to recent events in the 
Middle East!).
    As we came to fully understand National Heritage Areas we saw what 
a great partnership can be created between Federal, State and local 
jurisdictions through this mechanism. The resulting national 
recognition, combined with a relatively small amount of Federal 
support, can catalyze such great efforts and benefit at the local 
level.
    Senator Cleland and our Alliance partners share a deep love and 
affection for this part of our natural world an area where an amazing 
variety of treasures occur in a relatively small area, just for 
instance:

  <bullet> As the Senator mentioned, Panola Mountain is already a 
        designated National Natural Landmark and considered one of the 
        finest rock outcrop ecosystems in the eastern United States.
  <bullet> Arabia Mountain itself is home to Federally listed 
        endangered, threatened, and rare plant species and fabulous 
        displays of unusual plants and wild flowers year-round.
  <bullet> We have visible Native American settlement areas and 
        quarries that extend back 4,000 years that are already 
        designated historic sites at the local, State and Federal 
        level.
  <bullet> One of our favorite people in Georgia, General William T. 
        Sherman, camped at Arabia Mountain his first night out of 
        Atlanta on his way back home in 1864.
  <bullet> The granite rock quarries at Arabia and Lithonia employed 
        generations of immigrants to the United States and provided 
        stone for historic buildings, such as the Annapolis Academies, 
        all across the nation.
  <bullet> We have historic industrial and residential buildings built 
        out of the native stone, one of which is already listed on the 
        National Register of Historic Places.
  <bullet> As Senator Cleland mentioned, with the help of our great 
        Georgia Governor, Roy Barnes, our project has preserved for all 
        time the last remaining farm in DeKalb County--a county which 
        once was the dairy capitol of the entire State.

    In sum, this Heritage Area can display the entire history of this 
part of the world, from our Native Americans to the early settlers and 
farmers, through the Civil War to the great quarry industries--and at 
the same time preserve a unique ecological heritage. It is an 
historical miracle that such an historic opportunity still exits in 
2002 only twenty minutes from the downtown of a major urban area, 
particularly one growing like the Atlanta region. Think of the 
educational opportunities afforded by being within a one-hour field 
trip of nearly half the school population of the entire State. We need 
to preserve and tell these stories and this legislation will help 
greatly.
    In addition, National Heritage Areas can be not just park projects, 
but also economic development vehicles. In fact, we strive to be an 
exceptional Heritage Area in that regard by virtue of our ties to the 
local business community. The budge of our largest jurisdiction, DeKalb 
County, for example, depends on sales taxes rather than residential 
property taxes. By helping to attract visitors by the thousands, an 
Arabia Mountain National Heritage Area could fill up the hotel rooms, 
restaurants and shops at the nearby regional Stonecrest Mall, which 
will generate those sales taxes and, even more importantly, generate 
employment now that the older industrial base is receding.
    Obviously, we are enthusiastic, but to put that enthusiasm to the 
test, we decided to conduct a thorough study of what an Arabia Mountain 
National Heritage Area could offer to the public. We have provided a 
letter and summary findings from the highly experienced ICON 
architecture firm, which we retained for a nine month long study 
process. It was our pleasure to have the close and invaluable 
involvement of the Rivers, Trails and Conservation Assistance Program 
of the National Park Service Southeast Regional Office all along the 
way. The study findings, we believe, address all ten criteria set forth 
by the National Park Service for future Heritage Areas.
    Finally, permit me a few words about partnership. The Arabia 
Mountain Heritage Area Alliance has the enthusiastic support of the 
relevant State and local partners:

  <bullet> Over $23 million in land acquisition has been funded.
  <bullet> Land owners have gifted over $13 million in property.
  <bullet> Local philanthropy has contributed over $2 million.
  <bullet> Professional firms and individuals have donated untold 
        hours.

    We have also had invaluable support from numerous national and non-
profit organizations such as The Conservation Fund, The Nature 
Conservancy, and the Trust for Public Land.
    We are also proud of our bipartisan nature. Rockdale County, for 
instance is represented in the House of Representatives by Republican 
John Linder who is one of the cosponsors the companion bill in the 
House. We're also proud to say that this project occurs in a highly 
diverse area and has multi-racial involvement at all levels of the 
Alliance.
    Finally, the Alliance has been honored by the support and 
involvement of the families and community associations in the Arabia 
and Lithonia area ranging from the five-year-olds in our educational 
video to the 91-year-old S.B. Vaughters (our last farmer in DeKalb 
County), to the Lithonia Woman's Club members to prominent families 
such as the Davidsons who gifted Arabia Mountain to the public thirty 
years ago.
    Yet despite our degree of local commitment and accomplishment to 
date, our full success very much needs the recognition and operational 
assistance that designation as a National Heritage Area would provide 
and we humbly ask for your support of this legislation.
    Thank you very much for your time and interest. I will be happy to 
answer any questions that you may have.

    Senator Akaka. Thank you very much.
    Mr. Baker.

STATEMENT OF JAMES BAKER, SITE ADMINISTRATOR, FELIX VALLE HOUSE 
STATE HISTORIC SITE, MISSOURI DEPARTMENT OF NATURAL RESOURCES, 
                       ST. GENEVIEVE, MO

    Mr. Baker. Chairman Akaka, Senator Thomas. Thanks for the 
opportunity to speak on this issue. My name is James Baker and 
I serve as the site administrator of the State-owned historic 
properties in St. Genevieve, Missouri. I am here to testify for 
the State of Missouri in support of S. 1638, legislation to 
authorize a heritage assessment of the unparalleled French 
cultural resources located in and around our community. I will 
present the key issues that justify this study and I also bring 
letters of support from St. Genevieve and other organizations 
interested in this area.
    We believe the influence of France on our Nation's history, 
culture, and legacy is not well known or understood. Although 
numerous French historic and cultural assets remain throughout 
the country, few sites are able to reveal the vast influence of 
the French presence in the center of our continent prior to the 
Louisiana Purchase. The cultural identity forged in this 
region, later America's frontier, is a story of national 
significance well beyond the ability of any existing State or 
local interpretive facility to present in an appropriate 
manner.
    The authorization in S. 1638 is the vehicle that can apply 
a national perspective to the efforts to create an integrated 
approach to correct this problem. The historic region around 
St. Genevieve focuses on a corridor of French Colonial 
settlement along the Mississippi River, including resources at 
Cahokia, Fort de Chartres, Kaskaskia, Old Mines, and throughout 
the St. Louis region. This rich collection of resources 
includes St. Genevieve's national historic landmark district, 
which preserves a significant number of eighteenth century 
French colonial structures.
    Local archaeological resources include the original sites 
of St. Genevieve and New Bourbon, as well as a salt-producing 
settlement at the Saline Creek and the rich agricultural fields 
of Le Grand Champ.
    We believe this framework of historic and cultural assets 
can provide the basis from which to tell an integrated and 
comprehensive story of the significance of French culture and 
settlement on the national character and fabric of the United 
States.
    Interpretive themes of national significance can be 
developed further to enhance the understanding of the region's 
resources. These include French colonial exploration and 
settlement of the mid-Mississippi River Valley, French cultural 
influences on the social, architectural, and economic history 
of the region, the significance and impact of the Louisiana 
Purchase on these existing settlements, the cross-cultural 
experience between the English, French, black, and existing 
Native American populations, and the ongoing French influence 
in this area of the country today.
    We feel the proposed assessment will confirm our belief in 
the national scope of the historic resources of our region. The 
story of French colonial America is unique, but generally not 
well known or represented in our national interpretive efforts. 
We have an opportunity to tell this story at one of the most 
remarkable historic sites in this country, an area we propose 
as the French heritage park site.
    The site includes 2 of the 5 remaining poteaux-en-terre, or 
post-in-the-ground, vertical log houses known to survive in 
North America. The Amoureux House, circa 1792; and the 
Bequette-Ribault House, circa 1808, still stand together on 
their original sites as silent witness to an earlier time and 
culture. In addition, there is an opportunity to acquire 
adjoining properties from willing private sellers to make the 
heritage park a reality.
    In summary, an untapped set of national assets in this 
country begs to be assessed and integrated within an overall 
interpretive plan. An opportunity to bring these national 
assets together as a French heritage park can provide a place 
where the French experience can come to life while promoting 
the ongoing protection and visitation of this region's historic 
resources.
    S. 1638 is legislation that is timely and needed, providing 
the opportunity to properly assess these resources and 
interpretive themes and to chart an appropriate course of 
action. Therefore, the State of Missouri and its Department of 
Natural Resources are in full support of the legislation 
introduced by Senator Bond.
    Thank you for your consideration today.
    Senator Akaka. Thank you very much for your testimony.
    We have questions for you that we will ask you after we 
hear from the Senator from Nevada. May I ask the Senator from 
Nevada to join the group and to give your statement at this 
time.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Thank you very much, Mr. Chairman, Senator 
Thomas. Thank you very much for allowing me to step in here. I 
am happy to report from the floor we are making progress. We 
are going to have a vote probably in about a half an hour if 
things work out right and several more votes this evening. So 
we are moving right along.
    Mr. Chairman, I would ask unanimous consent that my full 
statement be made part of the record.
    Senator Akaka. Without objection, it will be included in 
the record.
    Senator Reid. I would note that this is the first thing 
that the State of Utah and the State of Nevada have agreed on 
since we agreed to split and not become part of the same 
territory. So this is really landmark legislation.
    We have support from White Pine County, which is in Nevada, 
Millard County, which is in Utah, the Governor of Nevada, the 
Governor of Utah. We have Indian tribes in Nevada, both the 
Shoshone Duckwater Tribe and the Ely Shoshone Tribe, Nevada 
Commission on Tourism, the city of Ely, Nevada, White Pine 
County Economic Diversification Council, White Pine Chamber of 
Commerce, Millard County Steering Committee, which again is in 
Utah, Millard County Economic Development Association, and 
large numbers of other entities and organizations who believe 
this would be great for this whole part of the State.
    Mr. Chairman, this is a unique part of America, and I would 
only indicate that we have some things there that are really, 
really amazing. For example, people do not realize that 
probably the oldest living things in the world are the trees we 
have there, the Bristlecone pines, some of which people believe 
are 6,000 years old. Think about that: 4,000 years before 
Christ was born, these trees started growing. They are there 
now. They are alive and you can go see them.
    The purpose of this heritage area will highlight the rich 
natural and cultural history of parts of Nevada and Utah by 
working with local communities to conserve, interpret, and 
develop these resources. The area has already been studied for 
its suitability for a national heritage area. This was done by 
a feasibility study in 1998.
    The area will be managed with a board of directors 
consisting of local officials from both counties and tribes. 
The board will have the authority to receive and spend Federal 
funds on the development of a management plan. The bill directs 
the Secretary of the Interior to enter into a memorandum of 
understanding with the board of directors for the management of 
this heritage area.
    The bill does not place any private property under Federal 
control. The local control is important because, as I have 
indicated, the Counties of White Pine, Nevada, and Millard 
County, Utah, believe they can benefit significantly from this.
    We hope that the committee will look favorably upon this. 
It is not as if we are trying to invent the wheel, but it is 
something that we want to be able to take advantage of. It is 
great for this part of the State of Nevada. I have to say 
frankly, Mr. President, speaking only for Nevada, this is an 
area that has been economically depressed. We had a mine that 
was in White Pine County. It was going great guns from about 
1900 to about 1975, employing thousands of people, and it 
closed up. Magma Copper came in and opened this mine again and 
for about 5 or 6 years it was going great guns again. It was 
purchased by some company, international company. They closed 
the mine.
    This area is economically depressed. It would really be 
tremendous if this committee would approve this so that we can 
move it to the floor.
    [The prepared statement of Senator Reid follows:]
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    Mr. Chairman, thank you for giving me the opportunity to testify in 
favor of this bill, which will establish a National Heritage Area in 
eastern Nevada and western Utah. I introduced this bill on February 13, 
2002, with Senator Ensign, Senator Hatch, and Senator Bennett as co-
sponsors.
    Mr. Chairman, as you know, National Heritage Areas are regions in 
which residents, businesses, as well as local and tribal governments 
join together in partnerships to conserve and celebrate their shared 
cultural heritage and special landscapes. We're honored to have with us 
today Denys M. Koyle, from Baker, Nevada, who will testify regarding 
the natural and cultural history of the Great Basin. Given her 
expertise, I won't go into detail about all that this region has to 
offer. I'll simply say that this bill will highlight such nationally 
significant historic areas as the Pony Express and Overland Stage 
Route, Mormon and other pioneer settlements, historic mining camps and 
ghost towns, as well as Native American cultural resources such as 
Fremont Culture archeological sites. The bill also celebrates some of 
Nevada's natural riches, including forests of bristlecone pine, which 
are renowned for their ability to survive for thousands of years.
    Mr. Chairman, the Great Basin National Heritage Area will include 
White Pine County and the Duckwater Reservation in Nevada and Millard 
County, Utah. The Heritage Area will also ensure the protection of key 
educational and inspirational opportunities in perpetuity without 
compromising traditional local control over--and use of--the landscape. 
Finally, the Great Basin National Heritage Area will provide a 
framework for celebrating Nevada's and Utah's rich historic, 
archeological, cultural, and natural resources for both visitors and 
residents.
    Mr. Chairman, the bill will establish a board of directors to 
manage the area. Consisting of local officials from both counties and 
tribes, the board will have the authority to receive and spend federal 
funds and develop a management plan within five years of the bill's 
passage. The bill directs the Secretary of the Interior to enter into a 
memorandum of understanding with the Board of Directors for the 
management of the resources of the heritage area. The bill also 
authorizes up to $10 million to carry out the Act but limits Federal 
funding to no more than fifty percent of the project's costs. The bill 
allows the Secretary to provide assistance until September 20, 2020.
    I am pleased to report that this bill has garnered widespread 
support throughout Nevada and Utah. I have received letters of support 
from a wide array of sources, including the following:

  <bullet> White Pine County Board of Commissioners
  <bullet> Millard County Board of Commissioners
  <bullet> Governor of Nevada
  <bullet> Governor of Utah
  <bullet> Ely (Nevada) Shoshone Tribe
  <bullet> Duckwater (Nevada) Shoshone Tribe
  <bullet> Nevada Commission on Tourism
  <bullet> City of Ely
  <bullet> Ely Business Council
  <bullet> White Pine County Economic Diversification Council
  <bullet> White Pine Chamber of Commerce
  <bullet> Millard County Steering Committee for responsible use of 
        Public Lands
  <bullet> Millard County Economic Development Association
  <bullet> Millard County Tourism
  <bullet> Delta (Utah) Area Chamber of Commerce

    Mr. Chairman, as the above list shows, this bill enjoys support in 
Nevada and Utah. But I want to make it clear that this bill is good not 
just for these two states, but the nation as a whole. The bill 
highlights the Great Basin's outstanding cultural and natural values 
and brings people together to celebrate this place with pride.

    Senator Akaka. Thank you very much for your testimony. We 
have no questions for you.
    Senator Reid. Thank you very much. I apologize for coming 
late.
    Senator Akaka. We will put your statement in the record.
    Senator Reid. Thank you very much.
    Senator Akaka. Thank you so much.
    We have some questions for our witnesses. May I pose the 
first question to Denys Koyle. The Park Service is recommending 
that we strike the provision of the bill that would allow the 
management entity to make loans. As I understand, we generally 
have not authorized the use of loans for heritage area 
management groups. Do you anticipate any adverse consequences 
if this provision were to be removed from the bill?
    Ms. Koyle. No, it would not affect us. Unless we got very 
prosperous, I do not think we would be loaning money. We would 
be relying on grants.
    Senator Akaka. Thank you for your brief response.
    I have a question for Jim Baker. Thank you for your 
testimony about a study for a possible French colonial heritage 
area. If the heritage area is designated, please describe the 
major projects for which Federal funding will be used?
    Mr. Baker. We would foresee an area which would encompass 
the 2 historic buildings I mentioned and their restoration and 
interpretation, and also the ability to create an interpretive 
center in an existing structure that would be able to bring 
together these resources. That has been the major flaw in the 
preservation effort of our region, is that the resources are 
somewhat scattered and each place operates independently 
through a lot of different organizations--the State of 
Illinois, the State of Missouri, local historic preservation 
organizations.
    We would envision that a Federal operation would be able to 
not necessarily bring together the management of those places, 
but bring together the interpretation of those places and offer 
the general public a view of the history of the region as a 
whole and bring together these elements so that they complete a 
picture of the French colonial settlement of what we call the 
Illinois Country, part of upper Louisiana, in the colonial 
period under the French and both the Spanish governments.
    Senator Akaka. Have you considered undertaking your own 
feasibility study instead of having the Park Service complete 
one?
    Mr. Baker. Our part of the project as the Department of 
Natural Resources involves our ownership and management and 
operation of the Amoureux House. As part of our planning 
process, we have discussed the operation and interpretation of 
that area, but we felt as though a national sense is more 
appropriate because the whole center of our Nation was actually 
French territory in the very earliest period, and we feel the 
importance of these resources is beyond the scope of just the 
State of Missouri's operation in St. Genevieve, but in a sense 
really deserves a much broader perspective which would be able 
to bring a national perspective to the history of that whole 
part of our country.
    Senator Akaka. Thank you.
    My next question is to Mr. Jordan of Georgia. Under the 
terms of the legislation, your organization would serve as the 
management entity for the heritage area. In reviewing the study 
you have prepared, it appears that the alliance represents a 
broad coalition of groups, and you have mentioned some of that, 
partnerships, nonprofit organizations and so forth. Can you 
provide us with more detail about the composition of the 
alliance?
    Mr. Jordan. Senator, I certainly could provide it in 
writing better than I could recite it at length today and I 
would be happy to do that.
    Senator Akaka. We will accept that when you can. Please 
provide it.
    Mr. Jordan. Let me say in addition to that, as I said, we 
performed this initial heritage area study. We have received 
the funds from the local philanthropic community to now do a 
more detailed management study. We accumulated over $100,000 
with which we are beginning to answer those questions in 
exquisite detail. But I will be happy to provide you everything 
that we have up to this point.
    Senator Akaka. Thank you. About the alliance, it appears 
that currently both representatives of certain Federal agencies 
and members of Congress are part of the alliance. Would you 
please explain whether it is your intention that they remain as 
part of the alliance once it is designated as the management 
entity?
    Mr. Jordan. No, sir, absolutely not. They are part of what 
we call our board of governors and they provide an overarching 
supervision and guidance to us, but they would not be part of 
day-to-day management.
    Senator Akaka. Mr. Shoup, based on your experience with the 
proposed Oil Region National Heritage Area, do you have any 
suggestions for us as we consider future heritage area 
designations? For example, what do you think are the minimum 
steps that need to be taken by a local group before a heritage 
area is designated?
    Mr. Shoup. I think minimally not only do they need to have 
a richness of heritage and a story to tell, but they have to 
have evidenced consensus in terms of developing consensus-based 
grassroots planning initiatives, they need to have some local 
consensus in terms of selection of themes and projects that are 
indeed relevant and worthy of promotion in building that 
support. I think that it is relevant, as per the display 
materials that we had up here, that you have a lot of local 
involvement in going through the management action plans and 
having the feasibility studies done and those kinds of things, 
so that when you make the argument that you should be 
designated a national heritage area, you have an argument to 
make.
    In our case, as would be evidenced in our packet, we not 
only have the support of local Senators and Representatives, 
but we have also encouraged their close cooperation in working 
with us. Some regularly attend meetings in support. We have the 
support of our county commissioners of all the counties 
involved, the cities, the leadership of the cities. The list 
goes on and on, and if you want I could establish.
    But I really think that what I would say is that it takes a 
lot of thought in terms of what you have that is historically 
significant and whether it is worthy of designation as a State 
heritage park, of a national heritage park, and move forward 
from there.
    Senator Akaka. Thank you very much.
    Further questions, Senator Thomas?
    Senator Thomas. Thank you, Mr. Chairman.
    Let me see here. The Great Basin, there has been no study 
of this proposal, is that correct?
    Ms. Koyle. Yes, we have had feasibility studies and studies 
paid for by the Nevada Commission on Tourism.
    Senator Thomas. But the Park Service has not made a study?
    Ms. Koyle. In 1998 there was a feasibility study done.
    Senator Thomas. By whom?
    Ms. Koyle. I believe the Park Service.
    Senator Thomas. I do not believe so.
    Ms. Koyle. No?
    Senator Thomas. I do not think the Park Service has made a 
study. Is that right?
    Ms. Barrett. No, the Park Service did not do the 1998 
study, although the Park Service did a broad regional study in 
1980 as part of the Great Basin National Park establishment.
    Senator Akaka. Does that meet the criteria that we need a 
study before we deal with this, if it was done in 1980?
    Ms. Barrett. Well, it was in many cases looking at both the 
history and the natural history of the area. I think that many 
of the more recent interim criteria that the Park Service uses 
are based on the special resource studies that the Park Service 
uses for park unit designation.
    Senator Thomas. What are you saying?
    Ms. Barrett. I am saying that----
    Senator Thomas. I am asking you, has there been the kind of 
study that we now require before these kinds of designations 
can be made?
    Ms. Barrett. Yes, we believe that, based on the background 
information that the Park Service gathered in 1980 and the more 
recent 1998 study that was done by the Great Basin partnership, 
that that meets the criteria for national heritage area 
designation.
    Senator Thomas. One of the sections in the bill says that 
``should not provide assistance until September 20, 2020.'' 
What does that mean?
    Ms. Barrett. I think we are proposing----
    Senator Thomas. After 2020.
    Ms. Barrett. We are proposing an amendment as part of our 
testimony to the legislation to amend that to say 2012.
    Senator Thomas. I see, to apply the 10-year proposition, I 
see.
    Ms. Barrett. Yes.
    Ms. Koyle. Senator Thomas, that 1998 study was funded by 
the Nevada Commission on Tourism. It was a $50,000 feasibility 
study.
    Senator Thomas. What size an area are you talking about?
    Ms. Koyle. The entire two counties cover from border to 
border about a 300-mile stretch of land. I do not know how many 
square miles it is, but it is significant. About 85 percent of 
that is Federal land.
    Senator Thomas. It says that it prohibits the management 
from regulating any land use inside the heritage.
    Ms. Koyle. We cannot zone, we cannot----
    Senator Thomas. I agree with that. What if they build a 
town and build apartments and so on?
    Ms. Koyle. We have nothing to say about it.
    Senator Thomas. I see. So it would not be the old 
heritage----
    Ms. Koyle. We have no regulatory powers whatsoever.
    Senator Thomas. The idea of a heritage, it always sounds 
like you are going to preserve something.
    Ms. Koyle. Our critics were most concerned about that, that 
there would be some kind of regulation. We cannot regulate 
private property at all.
    Senator Thomas. I understand. But then you cannot ensure 
that this historic scene is going to remain that way, can you?
    Ms. Koyle. I am sorry?
    Senator Thomas. You cannot assure that this historic thing 
that you are talking about will remain that way.
    Ms. Koyle. Unless you change the legislation, it would 
remain that way.
    Senator Thomas. Well, you said you do not have the 
authority to keep it that way.
    Ms. Koyle. We do not have the authority to regulate our own 
property or having anything to say about private property.
    Senator Thomas. Okay. I do not disagree with that, but it 
seems like it is a little conflicting with the idea of having a 
heritage unit and then not be able to retain that historical 
vision.
    Ms. Koyle. We have to have the permission of the private 
property owner.
    Senator Thomas. Well, I agree. I could not agree with you 
more.
    What size is the Arabia Mountain unit?
    Mr. Jordan. In the study, Senator, we have a proposed 
boundary. It makes clear in the study that that is not 
necessarily our final boundary when we do the detailed 
management study, but that would be about an 8 square mile area 
that you are looking at there if it were inclusive of all that 
is there. As I testified, we have been fortunate, with local 
support, to have acquired so far over 4,000 acres of that area. 
So we do have a fighting chance of preserving that, although, 
similar to these others, land that we have not actually 
acquired at fair market, we exercise no control over.
    Senator Thomas. Sure, I understand.
    I think the proposition here--oh, I guess that is in the 
oil heritage one, to get the money over 15 years; is that what 
you perceive?
    Mr. Shoup. Yes, that is my understanding of the proposal.
    Senator Thomas. What about if we stick to our 10-year 
proposal?
    Mr. Shoup. I think if we stick to the 10-year proposal we 
have the broad-based cooperation and capabilities to make it 
happen within that 10-year period, most certainly.
    Senator Thomas. That is all I have, Mr. Chairman.
    Senator Akaka. Thank you very much for your questions. I 
want to thank all of the witnesses for appearing before the 
subcommittee this afternoon.
    The hearing record will remain open for 2 weeks if anyone 
wishes to submit additional comments or materials to be 
included in the record. I want you to know that we appreciated 
your responses and they will be helpful as we make the 
decisions for this committee.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 4:40 p.m., hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

          The Foundation for Restoration of Ste. Genevieve,
                                Ste. Genevieve, MO, April 16, 2002.

Hon. Chairman, Subcommittee on National Parks, U.S. Senate, Washington, 
    DC.

    Senator: The Foundation For the Restoration of Ste. Genevieve 
respectfully requests that your committee take favorable action on 
Senate Bill 1638 which will provide funds to the Department of the 
Interior to conduct a study of the historic assets of Ste. Genevieve, 
Missouri to determine how best to preserve, protect, interpret and 
promote the various facets of pre-colonial and French Colonial Ste. 
Genevieve history.
    The small city of Ste. Genevieve contains the greatest assemblage 
of French Colonial vertical log buildings in North America. These 
structures are the heart of the Ste. Genevieve National Historic 
District. But these French Colonial structures are only part of the 
unique treasures of the Ste. Genevieve area. It is rich in sites that 
define the Native American and French Colonial lifestyle in the early 
days of its development. The Saline Salt Springs were important to both 
cultures. The earlier site of Ste. Genevieve and New Bourbon, as well 
as the salt springs and the earthen mounds of an extensive 
Mississippian Indian community are rich archeological sites.
    These priceless historic features are an important national asset. 
But they need to be further studied to develop a plan by which the 
various levels of government and the private sector can best preserve 
and interpret them for the American public.
    The area of the Mississippi valley was a key element in the French 
exploration and settlement in North America. The numerous archeological 
sites, together with the large number of surviving French Colonial 
structures in Ste. Genevieve make this the most logical location for a 
National Historic Site dedicated to the French presence in North 
America.
            Sincerely,
                                         Franklin W. Myers,
                                                         President.
                                 ______
                                 
                        Ste. Genevieve Chamber of Commerce,
                                Ste. Genevieve, MO, April 16, 2002.
Hon. Daniel K. Akaka,
U.S. Senate, Hawaii Chairman, Subcommittee on National Parks, Committee 
        on Energy and Natural Resources, Washington, DC.
    Dear Senator Akaka: The Ste. Genevieve, Missouri Chamber of 
Commerce pledges our sincere support for S. 1638, the proposed 
legislation submitted by Senator Christopher Bond to authorize the U.S. 
Department of the Interior to study the suitability and feasibility of 
designating the French Colonial Heritage Area within Ste. Genevieve, 
Missouri as a unit of the National Park System.
    Ste. Genevieve, Missouri is a truly well preserved City 
representing the early French settlement areas of farming and mining in 
southeast Missouri and southwestern Illinois. The local calendar of 
events features several festivals to celebrate our French heritage, 
such as Jour de Fete Day of Celebration (the 2nd weekend of August) and 
the Festival de la Nouvelle France in May. Local organizations that 
fund and support our historic institutions include the National Society 
of the Colonial Dames of America, the Foundation for Restoration of 
Ste. Genevieve, Inc., French Colonial Dames, the French Heritage 
Society, French Colonial Merchants Association, and several other 
active local groups. The Chamber of Commerce works extensively to 
promote tourism to share our important historic heritage with the 
National Community.
    If authorized by S. 1638, the study will identify and confirm the 
national importance of the French cultural heritage of Ste. Genevieve, 
Missouri. We thank you very much for your full support of S. 1638 as 
introduced by Senator Bond. To learn more about Ste. Genevieve, please 
check the Chamber of Commerce web site at www.saintegenevieve.org.
            Sincerely,
                                               Jack Rozier,
                                                         President.
                                 ______
                                 
                                    City of Ste. Genevieve,
                                Ste. Genevieve, MO, April 16, 2002.
Hon. Daniel K. Akaka,
U.S. Senate, Hawaii Chairman, Subcommittee on National Parks, Committee 
        on Energy and Natural Resources, Washington, DC.
    Dear Senator Akaka: The City of Ste. Genevieve, Missouri submits 
this request to the Subcommittee on National Parks to fully support S. 
1638 and authorize the U.S. Department of the Interior to study the 
suitability and feasibility of designating the French Colonial Heritage 
Area within our City as a unit of the National Park System.
    Ste. Genevieve, Missouri was the hub City of a significant French 
cultural area founded in eastern Missouri and southwestern Illinois in 
the middle Eighteenth Century. The region included the Missouri cities 
of St. Louis, Cape Girardeau, old Ste. Genevieve, New Bourbon, and Ste. 
Genevieve was the predominant early regional trade center. The Ste. 
Genevieve Ferry across the Mississippi River has continuously operated 
since about 1780 and provided a notable commercial corridor to link our 
City with French communities in Illinois such as Prairie du Rocher, 
Kaskaskia, Cahokia, Fort Chartres, Fort Kaskaskia, Renault, etc.
    Ste. Genevieve is blessed with many historic properties, including 
three sites operated by the State of Missouri Division of Parks, and 
our City has a long history of protecting our historic resources 
through enactment of historic preservation policies. The Ste. Genevieve 
National Landmarks Historic District (National Register Historic 
District) has been in existence since 1991 and creates a central focal 
point to view the City's rich historic traditions. In 1969, the Ste. 
Genevieve Landmarks Commission was created by the City to protect, 
enhance and perpetuate the historic structures and elements. The City 
was fortunate to receive approval of funding appropriations in 1995 of 
$40 million for Phase I of our Urban Design Levee. This facility was 
authorized by the U.S. Army Corps of Engineers for the purpose of 
historic preservation and has only recently been substantially 
completed to protect the City from flooding, for which the City is most 
thankful.
    The study will identify and confirm the national importance and 
significance of the French historic sites in Ste. Genevieve, Missouri. 
We thank you very much for your full support of the S. 1638 legislative 
proposal as introduced by Missouri Senator Christopher Bond.
            Sincerely,
                                         Kathleen M. Waltz,
                                                             Mayor.
                                 ______
                                 
                                                      Fillmore, UT.
Senate Subcommittee on National Parks:

    Gentlemen: Regarding Bill S. 1939, Designation of Great Basin 
National Heritage Area Please enter this letter into the official 
record.
    It is important to Millard County and the Fillmore Area Chamber of 
Commerce that this bill be passed. We ask that you consider this an 
official request.
    The passage of this bill can have an economic impact on the 
business districts and areas of our community and county, with the 
visitors that will come to the park.
    We want to have this lovely area preserved for the enjoyment of all 
who would like to visit it and appreciate the beauties of our country.
    Thank you for your consideration of our wishes.
                                       William D. Speakman,
                                 Fillmore Area Chamber of Commerce.
                                 ______
                                 
                            Delta Area Chamber of Commerce,
                                                         Delta, UT.
Senate Subcommittee on National Parks:

    The Delta Area Chamber of Commerce is very much in favor of U.S. 
Senate Bill S. 1939--Designation of Great Basin National Heritage Area.
    The Great Basin area, particularly along Highway 50 is full of many 
areas of interest for the traveler. Our Chamber Board is dedicated to 
promoting the business of tourism in this area. There are many events 
that help link tourists to the history and geography in Millard County. 
See our web site, www.millardeounty.com. I will list just a few of the 
events and attractions in Millard County:

                Snow Goose Festival in Delta
                First Territorial State House in Fillmore
                Topaz, a Japanese relocation camp
                Old Capitol Days in Fillmore
                Trilobite fossil beds
                Topaz crystals in Millard County
                Pony Express Route
                Gunnison Bend Massacre Site
                Cove Fort

    In 1776, Frs. Escalante and Dominguez came through Millard County 
seeking a northern route to Monterey, in California from Santa Fe (now 
in New Mexico).
    The Delta Area Chamber of Commerce promotes some of these festivals 
and locations. We beg for contributions to finance these events and 
others we simply do not have enough funds to advertise or promote them 
at all. Those of us in the chamber spend a lot of volunteer time 
working to make them a success.
    We are a small community and the tourism dollar would be a boost to 
our economy. Our primary industry is agriculture and the extra income 
from travelers would surely help the retail business in Delta and 
Fillmore.
    Again I ask you, pass the U.S. Senate Bill, S. 1939--Designation of 
Great Basin National Heritage Area. Please include this letter in the 
official record.
    Thank you.
                                                Board of Directors.
                                 ______
                                 
                                   Ely Renaissance Society,
                                            Ely, NV, Apil I2, 2002.
Shelley Brown,
Committee on Energy and Natural Resources, Dirksen Senate Office 
        Building, Washington, DC.

    Dear Ms. Brown: The Ely Renaissance Society supports the National 
Heritage Area designation for the Great Basin Area Partnership.
    The Highway 50 Corridor from Delta, Utah to Ely, Nevada is a unique 
area covering over 150 miles. Located in the center of the Great Basin, 
this stretch of the Loneliest Road in America includes over 800 
historical, cultural, religious, and geological sites that tell the 
story of the land and people who have lived here for hundreds of years.
    Heritage tourism and the idea of using an area's history to attract 
visitors has become the fastest growing segment of tourism in the 
world. Travelers interested in history and culture travel to more 
destinations, stay longer, and spend more according to information from 
the Nevada Commission on Tourism.
    The economic impact of increased visitors to the Highway 50 
Corridor is vital to all the communities located from Delta, Utah to 
Ely, Nevada. Marketing the area in a combined effort benefits all the 
residents and businesses located here.
    Since the beginning of the Heritage Area Partnership, the Ely 
Renaissance Society has been proud to join with over 100 local, suite, 
and regional entities in supporting the Great Basin Heritage Area 
Designation.
            Sincerely,
                                            Virginia Terry,
                                                         President.
                                 ______
                                 
                                              Topaz Museum,
                                         Delta, UT, April 13, 2002.
To Whom It May Concern:

    As a citizen of Delta, Utah who is concerned with the preservation 
and educational value of the Topaz Internment Camp site, I encourage 
passage of the bill that will create the Great Basin Heritage Area.
    During World War II, the Topaz Internment Camp was located 16 miles 
from Delta which is on Highway 6, a direct route from San Francisco to 
Denver. The site housed over 8,500 Japanese Americans who were removed 
from the San Francisco Bay area because of the prejudice and fear that 
accompanied Pearl Harbor. One of ten camps, Topaz City, still 
dramatically shows the skeleton of the town where the people lived. 
Artifacts and buildings are still scattered throughout the approximate 
19,000 acres that comprised the camp. After sixty years, the site tells 
a powerful story even though the desert has buffeted the city's remains 
for sixty years. Walkways, roads, barbed wire, foundations and gardens 
all tell part of the story of internment, a story Americans should 
continue to hear and heed.
    The Topaz Museum Board has been working for several years to 
preserve the site and to construct a museum in Delta in order to 
continue to educate visitors. People are more and more interested in 
the subject. Although the museum is not completed, we have had visitors 
from all over the United States and Japan.
    The history, although difficult, is an important part of the 
heritage of Millard county, Utah and the nation. However complex and 
difficult it is talk about, visiting the site moves people to a greater 
understanding of the fragile nature of democracy, and prompts citizens 
to admire those who responded positively even in adverse conditions of 
internment.
    In 1999, the site was named a Save American Treasure's project. The 
Topaz Museum Board has been working to raise money for the construction 
of a museum, and it has also purchased 425 acres of the site to prevent 
housing development that would destroy the history. But we need the 
support that we believe the Great Basin Heritage Area would bring. We 
encourage the passing of the bills and appropriations to make this 
happen.

                                             Jane Beckwith,
                                      Topaz Museum Board President.
                                 ______
                                 
                    Department of Cultural Affairs,
                            East Ely Railroad Depot Museum,
                                           Ely, NV, April 16, 2002.
Ms. Shelly Brown,
Committee on Energy and Natural Resources.

    Dear Committee: The East Ely Rdilroad Depot Museum, located in Ely 
Nevada is pleased to lend its support to the Great Basin Heritage Area 
Partnership. This effort has welded a number of entities into a 
cohesive organization to better promote and protect the rich natural 
beauty and heritage of western Utah and eastern Nevada.
    As one of six museums in the State of Nevada's Division of Museums 
and History we recognize the value of this type of partnership. It has 
already been a driving force for uniting and magnifying a voice for 
preservation. The designation of a Heritage Area will continue to be of 
tremendous significance to us as we pursue our mission to preserve and 
display eastern Nevada history.
    We offer our support in requesting the Committee on Energy and 
Natural Resources designate the area of western Utah and eastern Nevada 
as a Heritage Area. The natural resources and significant heritage of 
the area are worth protecting and preserving for all Americans.
            Respectfully,
                                                Sean Pitts,
                                                          Director.
                               Nevada Humanities Committee,
                           Reno, NV, Las Vegas, NV, April 16, 2002.
Shelley Brown,
Senate Committee on Energy and Natural Resources, Subcommittee on 
        National Parks.

    I am writing in support of the Great Basin Heritage Area. This area 
of eastern Nevada and western Utah, which is adjacent to the Great 
Basin National Park, is a land of historic significance and exceptional 
natural beauty and grandeur.
    The area has much to attract tourists: from the oldest trees to be 
found on the face of the earth to the intact Northern Nevada Railway 
Depot and roundhouse. The cooper mining history of the Ruth-McGill 
area, with its ethnically diverse company town, has been well recorded 
by historian Russell Elliott, And the adaptation of Native Americans to 
the and environment of the Great Basin is yet another interesting story 
to tell. From the early explorers to the Pony Express riders and the 
Lincoln Highway travelers, this is an area that has been traversed and 
described for 175 years by interesting wayfarers.
    Designation as a heritage area would be a tremendous boon to those 
residents of the area who care about history and historic preservation. 
We can promise the on-going interest and involvement of Nevada 
Humanities in this heritage effort. Please give it your careful 
attention.
            Sincerely yours,
                                           Judith Winzeler,
                                                Executive Director.
                                 ______
                                 
                                                    April 17, 2002.
Shelley Brown,
Committee on Energy and Natural Resources, Dirksen Office Building, 
        Washington, DC.

    In June 1999, with the support of the National Park Service and the 
Nevada Commission on Tourism, and after a series of public meetings 
over a two-year period in White Pine County, Nevada and Millard County 
Utah, the Great Basin Heritage Area Partnership was formed. I believe 
that a National Heritage Area encompassing the two counties and the 
Duckwater and Ely Shoshone Reservations will contribute to the quality 
of life and provide a much needed economic stimulus package for the 
area.
    My particular interest within the broad and profound themes of the 
proposed National Heritage Area, is the town of McGill, Nevada. I live 
in McGill and operate the historic McGill Drugstore as a unit of the 
White Pine Public Museum. McGill is unique in Nevada and possibly 
unique in the nation. This was a company town for the Kennicott Cooper 
Mines and retains its original layout, company bungalow style housing, 
business district, schools and company buildings. The entire town is a 
living artifact of an era that is passing into the national history. 
The ethnic heritage of the miners who settled the Great Basin is still 
evident in McGill.
    The National Heritage Area designation will bring more tourism into 
the area and more visitors to the community of McGill. They will have a 
wonderful opportunity to view and experience a ``company town'', a part 
of the national heritage and very likely a part of their own family 
heritage, regardless of their origins. They will also have the 
opportunity to learn about the settlement of the Great Basin and the 
American West, a story that is not only cowboys and cows, but 
immigrants from Europe and Asia building mines, railroads, towns and a 
diverse society.
    The National Heritage Area designation will also provide an 
economic stimulus to the area and to the town of McGill. Tourism based 
on the preservation and interpretation of our local and national 
heritage has the potential to provide jobs, improve infrastructure, and 
maintain or heritage for future generations.
    The community of McGill and the White Pine Public Museum support 
the efforts of the Great Basin Heritage Area Partnership to achieve 
National Heritage Area designation. We hope that you and your committee 
will support passage of SB 1939 to create Great Basin National Heritage 
Axes.
            Sincerely,
                                           Daniel Braddock.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
